<html>
<title> - GUNS, DRUGS AND VIOLENCE: THE MERIDA INITIATIVE AND THE CHALLENGE IN MEXICO</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 GUNS, DRUGS AND VIOLENCE: THE MERIDA INITIATIVE AND THE CHALLENGE IN 
                                 MEXICO

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2009

                               __________

                           Serial No. 111-15

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-140                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
          Francis Gibbs, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable David Johnson, Assistant Secretary of State, Bureau 
  of International Narcotics and Law Enforcement Affairs, U.S. 
  Department of State............................................    17
Ms. Roberta S. Jacobson, Deputy Assistant Secretary of State, 
  Bureau of Western Hemisphere Affairs, U.S. Department of State.    29
Ms. M. Kristen Rand, Legislative Director, Violence Policy Center    49
Andrew Selee, Ph.D., Director, Mexico Institute, Woodrow Wilson 
  International Center for Scholars..............................    67
Mr. Michael A. Braun, Managing Partner, Spectre Group 
  International, LLC.............................................    76

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     4
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................     8
The Honorable David Johnson: Prepared statement..................    19
Ms. Roberta S. Jacobson: Prepared statement......................    31
Ms. M. Kristen Rand: Prepared statement..........................    51
Andrew Selee, Ph.D.: Prepared statement..........................    70
Mr. Michael A. Braun: Prepared statement.........................    78

                                APPENDIX

Hearing notice...................................................    94
Hearing minutes..................................................    95
The Honorable Connie Mack: Statement of Mr. Chris W. Cox, 
  Executive Director, NRA Institute for Legislative Action.......    96
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Material from The Menges Hemispheric Security 
  Project Center for Security Policy dated October 2008..........   101


 GUNS, DRUGS AND VIOLENCE: THE MERIDA INITIATIVE AND THE CHALLENGE IN 
                                 MEXICO

                              ----------                              


                       WEDNESDAY, MARCH 18, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:13 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. Good morning. A quorum being present, the 
Subcommittee on the Western Hemisphere of the Foreign Affairs 
Committee will come to order.
    I want to start today's hearing with a brief anecdote from 
my recent trip to Mexico. Over Presidents' Day recess, I led a 
bipartisan congressional delegation to Mexico, along with six 
of my colleagues. One of my main goals for this trip was to 
focus on ways that the United States and Mexico can enhance 
cooperation in combating this scourge of illegal firearms 
trafficking from the United States into Mexico.
    My very first meeting in Mexico City was with the attorney 
general, Eduardo Medina Mora. After the meeting, the attorney 
general led my delegation into an adjacent room where he had 
pulled together just a small sampling of the many guns that 
were captured in that week alone. You can see this on the 
screens on either side of the hearing room.
    Of course, the majority of these military-style assault 
weapons could be traced back to the United States, and many 
could be even further traced back to countries in Eastern 
Europe or even China.
    The availability of assault weapons has armed and 
emboldened a dangerous criminal element in Mexico and has made 
the job of drug cartels easier. A shocking 90 percent of 
firearms recovered in drug-related violence in Mexico come from 
the United States.
    I have been outspoken on this issue, over the last 2 years, 
and I will continue to do everything that I can to increase 
U.S. efforts to curb gun trafficking into Mexico.
    I want to reiterate that this has nothing to do with Second 
Amendment rights. It has nothing to do with the discussion of 
differences of opinion of people who should own guns or not. 
This is simply about cracking down on the illegality of these 
assault weapons coming into the United States illegally being 
manufactured to change a little bit in terms of what the 
firearms are, making a minor change in the firearms, and then 
illegally sending them south of the border into Mexico. It has 
got nothing to do with Second Amendment gun rights; it has got 
everything to do with the illegality and disobeying laws that 
are already on the books.
    On February 12th, I sent a letter to President Obama, 
signed by a bipartisan group of 52 of my colleagues, urging him 
to once again enforce the ban on imported assault weapons, 
which was previously enforced during the administrations of 
Presidents George H.W. Bush and Bill Clinton.
    In recent years, the Bureau of Alcohol, Tobacco, Firearms 
and Explosives has quietly abandoned enforcement of the import 
ban. As a result, the U.S. civilian firearms market is flooded 
with imported, inexpensive, military-style assault weapons. 
These assault weapons, again, which often come from Eastern 
Europe, are being trafficked from the United States across the 
border into Mexico.
    To get around the ban, importers have been able to skirt 
restrictions by bringing in assault weapons parts and 
reassembling with a small number of U.S.-made parts.
    Enforcing the existing import ban requires no additional 
legislative action and would be a win-win for the United States 
and Mexico.
    By the way, when we were in Jamaica, the Prime Minister of 
Jamaica told us the same thing, that about 90 percent of the 
crime committed in that country is done with U.S.-made weapons.
    To show our commitment to curbing firearms trafficking from 
the United States to Mexico, I also urged the Senate Foreign 
Relations Committee to take up the Inter-American Convention 
Against the Illicit Manufacturing of and Trafficking in 
Firearms Ammunition, Explosives, and Other Related Materials, 
which is called the CIFTA Treaty, and they ought to do that as 
soon as possible. To expedite the process, I urged the 
administration to begin consultations with the committee on the 
treaty immediately.
    We must also step up ATF operations along the Southwest 
border, and I am proud to see Congresswoman Giffords here as 
well, who represents a large part of that area in Arizona.
    I am a co-sponsor of the Southwest Border Violence 
Reduction Act of 2009, a bill introduced by my friend and 
colleague, Ciro Rodriguez, who also has a district that is 
along the Texas-Mexico border, which would increase ATF 
resources along the border.
    The recently passed economic stimulus package will add $10 
million in ATF resources to the border region, but with 
thousands of licensed gun sellers along the border, much more 
needs to be done.
    I would like to take a step back from the firearms issue 
for a second and focus more broadly on the precarious security 
situation in Mexico and along the United States-Mexico border.
    Drug-related killings in Mexico reached around 6,000 last 
year, and the United States press clearly is taking note of the 
alarming situation.
    I have met with President Calderon three times over the 
past 6 months. I am impressed by his courage in taking on 
Mexico's drug cartels and his commitment to strong United 
States-Mexico relations. I have been one of the strongest 
supporters of the Merida Initiative in Congress and will 
continue to be in the coming years.
    But, let me emphasize today, as I have in the past, that we 
cannot focus exclusively on Mexico as we look to combat drug 
trafficking. We must take a more comprehensive, hemisphere-wide 
approach to the problem. The inclusion of Central America in 
the Merida Initiative was a good first step, and I urged that 
step, and I urged the funding for Central America, and we did 
really well, in terms of getting more funding for Central 
America.
    Congress's expansion of Merida to Haiti and the Dominican 
Republic was very, very important, and I pushed for that and 
supported it as well, but funding must be increased for the 
countries in Central America and must be further expanded in 
the Caribbean.
    At the same time, much more needs to be done to reduce the 
U.S. demand for drugs. Obviously, if we did not have a demand 
for drugs in this country, the cartels would not thrive. Not 
only do our weapons arm Mexico's drug cartels, but our 
consumption habits fuel the drug trade. Let us make no mistake 
about that.
    Just as the Merida Initiative was announced, and the United 
States-Mexico joint statement was put out saying that the U.S. 
would intensify our efforts in addressing the demand question, 
President Bush released his Fiscal Year 2009 budget, which cut 
spending for U.S. drug-prevention and treatment programs by $73 
million. This was completely unacceptable.
    I was encouraged by President Obama's selection of Seattle 
Police Chief Gil Kerlikowske as our new Drug Czar. In his 
remarks accepting the nomination, Kerlikowske said, ``The 
success of our efforts to reduce the flow of drugs is largely 
dependent on our ability to reduce demand for them.'' I could 
not agree more.
    I am now pleased to mention that we have two distinguished 
witnesses from the State Department, David Johnson, who is 
assistant Secretary of State for International Narcotics and 
Law Enforcement Affairs; and Roberta Jacobson, who is deputy 
assistant Secretary of State for Western Hemisphere Affairs.
    I am sure, as the months and years go on, we will be 
working with them a great deal. I look forward to hearing your 
testimony, and I will save introductions of our second panel 
for later. But with that, I would now like to call on our 
ranking member, Connie Mack, for his opening statement.
    [The prepared statement of Mr. Engel 
follows:]<greek-l>Chairman Engel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Mack. Thank you, Mr. Chairman. Thank you for your 
strong leadership in this subcommittee and for holding this 
important hearing today. I also want to thank our witnesses for 
coming and for sharing their insight and knowledge and thoughts 
on our relationship with Mexico.
    The panels today will be discussing key issues relating to 
the escalating violence related to growing drug trafficking in 
the cartels in Mexico and how the Merida Initiative will help 
bolster not just the security but the security of the entire 
hemisphere.
    There are several areas I would particularly like to focus 
with our witnesses today, but, before I do, I think it is 
important to highlight the hard work of President Calderon. 
This is a President who has taken the drug cartels head on and 
has not flinched in the fight to rid Mexico of these cowards.
    This fight will not be an easy one, and I think that it is 
admirable that the Mexican Government and has undertaken a 
fight that many have shied away from.
    As to our panel, I am curious to hear your <greek-l>that 
deg.thoughts on current funding for the Merida Initiative and 
where and how should the money be used. The Merida Initiative 
is an essential tool in the fight against drugs and crime. 
While I have been, and remain, a strong supporter of Plan 
Colombia, I recognize that many Members of Congress are divided 
over this, but no one can deny that drug trafficking in 
Colombia has been greatly reduced, and the violence in Colombia 
caused by the cartels and narcoterrorists, such as the FARC, 
have been overwhelmingly reduced.
    As everyone is aware, in 2008, nearly 6,000 people were 
killed in Mexico due to drug-trafficking violence. This year 
alone, there have been more than 1,000 deaths. These numbers, 
and the growing strength and audacity of the cartels, mean that 
now, more than ever, Congress and the Obama administration must 
stand with our allies in Mexico and support full funding of the 
Merida Initiative.
    This is not only a problem for Mexicans; this is a problem 
for Americans. You see, there is an interesting link between 
drugs and the instability of governments.
    Consider Venezuela: Venezuela is a country that is a major 
trafficking route for drugs coming out of South America. Hugo 
Chavez has allowed narcotraffickers, such as the FARC and 
others, to operate freely, and, just this week, El Salvador 
elected a candidate whose party was closely affiliated with the 
FARC.
    As the fight against drug cartels continues in Mexico, and 
men, like Hugo Chavez, roam around Latin America manipulating 
democracies, let us not let those cowardly thugs fill the void. 
Instead, let us stand with our allies and friends and help them 
in a time of need.
    Mr. Chairman, another tool that is indispensable in 
fighting drugs and crime is strong commercial ties. My judgment 
is that the free flow of trade between two countries is the 
basic weapon one can use in fighting poverty, crime, and drugs. 
In my opinion, a continued and strong bond between our peoples 
can only lead to increased prosperity in both nations.
    We, in Congress, must have an honest conversation when it 
comes to these issues. If we have concerns that deal with 
safety, then we must address these safety concerns and ensure 
that the free flow of goods is reestablished. If we have other 
concerns, we must work together with our Mexican partners to 
fully address and, more importantly, resolve these issues.
    Lastly, I wanted to touch upon a critical concern that will 
surely come up today and already has, and that is guns. Many 
have used the violence in Mexico to push their gun-control 
agenda. My constituents know that I am an ardent supporter of 
the Bill of Rights and, particularly, the Second Amendment. 
While we all know that the escalating violence in Mexico is a 
tremendous problem that must be decreased, we cannot allow 
people in this country to use the situation in order to advance 
their gun ban agenda here in the United States.
    Instead of creating new laws and bans in this country, we 
should start enforcing the existing laws that are on the books.
    As an example, Mr. Chairman, it is already against the law 
to smuggle guns across the border, and it is already against 
the law to use a straw man to purchase a gun in this country, 
but now is not the time punish law-abiding Americans and 
surrender our Second Amendment rights.
    Mr. Chairman, all of us on this committee share the same 
objective: We want to see illegal drug trafficking eliminated.
    As I hear our witnesses today, I will be paying close 
attention to their remarks on some issues that we touch on 
today and, more importantly, the testimony on how to improve 
the relations with Mexico and bolster the Merida Initiative. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mack 
follows:]<greek-l>Connie Mack statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Mack.
    I now call on the vice chairman of our subcommittee, Mr. 
Sires, for any remarks he may have.
    Mr. Sires. Thank you, Mr. Chairman, for holding today's 
hearing.
    Unfortunately, we are all aware of the thousands of 
killings that have occurred in Mexico over the last year, and 
we are also aware that these numbers are increasing, with over 
1,000 murders already this year, and I am ashamed, as many of 
you are, that dollars and weapons originating in the United 
States play a large role in supporting these brutal attacks.
    I believe we are all here today for one purport: To help 
Mexico and ourselves in this debilitating battle, and I am 
pleased to see that Congress is giving this issue the attention 
it deserves. Drug trafficking and the crime associated with it; 
it is an enormous obstacle facing the region, increasing 
violence and corruption and impeding economic and social 
development.
    As violence continues and fear increases across the region, 
travel warnings have been issued and rumors of a failing state 
have emerged. While some rumors may not be valid, the 
seriousness of this crisis should not be downplayed.
    Also, as we learned in the Andean region, an appropriate 
response cannot solely be focused on one country. We must be 
conscious of how focusing the majority of our efforts on Mexico 
may affect crime and violence elsewhere in the region.
    Despite the economic challenges we are facing at home, we 
must continue to work with all of our neighbors to combat this 
region's crime, and I look forward to hearing from our 
distinguished guests, and thank you very much for being here.
    Mr. Engel. Thank you, Mr. Sires. Mr. Burton, the former 
ranking member.
    Mr. Burton. Thank you, Mr. Chairman. It is nice to be with 
you again. The chairman and I get along very well and have for 
a long, long time, but occasionally we have a little 
disagreement here and there.
    Mr. Engel. Only occasionally.
    Mr. Burton. Only occasionally. You know, the thing that 
bothers me--I am for the Merida Initiative, and I am for 
stopping the drug trafficking and stopping the illegal sale of 
weapons, but I want to tell you a little story.
    Back when I first got elected to Congress, Washington, DC, 
the crime capital of the country, at that time, had the most 
severe gun control law in the country. I was riding in a cab to 
the Capitol, and I said to this cab driver, ``Tell me about 
Washington.'' He said, ``It is the most beautiful place around, 
but be careful when you get out on the streets.'' And I said, 
``Really? Why?'' He said, ``The crime is terrible.''
    I said, ``Maybe I should get a permit to carry a gun. I had 
one Indiana when I was in business because I carried large sums 
of money from time to time.'' He said, ``Oh, you will never get 
a gun here. You can't have a gun permit. The only people that 
have guns in Washington are the police and the crooks.''
    I said, ``Oh, is that right?'' and he reached under the 
front of his car, and he pulled a .38 out, and he said, ``But 
if you want one, I can get you one in about 15 minutes.''
    Now, the reason I bring that story up is that there is 
going to be an attempt, this year and every year, to try to 
limit the sale of guns in this country, and my answer to that 
is, the criminals, if they have got the money, and the drug 
dealers surely do, they are going to find a way to get those 
guns. If they do not get them here illegally, and they are 
illegal, as my colleague, the ranking member, said, then they 
are going to get them someplace else.
    They can get them from Venezuela, from Mr. Chavez, who has 
an excessive number of AK-47's down there; they can get them 
through Cuba; they can get them from China; they can get them 
from Russia; they can get them from all over the place.
    So to start endangering America's Second Amendment rights 
by saying, ``You know, we have got to stop the flow of these 
weapons because they are going across the border illegally,'' 
is a straw man, in my opinion. They are going to get the 
weapons, if they have got the money, and they can get them from 
other sources besides here in the United States.
    In addition to that, let me just say that they are getting 
pretty heavy weapons that you do not get very easily in the 
United States. I would just like to ask our panelists today, 
where are they getting those weapons? If they cannot get them 
here in the United States, they must be getting them from 
somewhere: Rocket launchers and everything else.
    In my opinion, they are probably getting them from the 
places I just mentioned a minute ago, probably through 
Venezuela or from China or from Russia or wherever else they 
manufacture these things.
    So I think that we all ought to be very, very careful and 
considerate of the founders of this country and what they meant 
when they wrote the Declaration of Independence, the 
Constitution, and the Bill of Rights. I do not think we should 
be messing around with the Second Amendment.
    I know the chairman has said that that is not the intention 
of the hearing, but we will leach into that area, and I just 
want to make sure that the position that I have is very well 
known, and I yield back the balance of my time.
    Mr. Engel. Thank you, Mr. Burton.
    I would like to ask all people--I am going to give 
everybody a chance to make an opening statement, but it we 
could keep it to 3 minutes or less, as the other people have, 
so I want to thank them all for making that effort. Mr. Green?
    Mr. Green. Thank you, Mr. Chairman, for holding this 
oversight hearing because this is so important to those of us, 
particularly that represent border areas. As a supporter of the 
Second Amendment, we can still enforce our laws against exports 
without hindering my constituents from being able to buy 
whatever they want in Texas, under our Second Amendment. We 
just do not want them to export it because--I have said it many 
times--in Texas, we want all of those guns in Texas. We do not 
want to send anybody anything. We want to keep them ourselves.
    As a Member of Congress from Texas, I know, firsthand, how 
dangerous the recent increase in drug trafficking violence is, 
and the fear along our border is palpable. In fact, I have 
crossed the border many times because of family that lives in 
South Texas.
    Just last month, in Juarez, which is right across the 
border from El Paso, the police chief resigned after cartel 
gunmen left warnings on the bodies of slain police officers and 
prison guards that they would kill one every 48 hours until he 
resigned. He resigned. Three days after the police chief's 
resignation, a convoy of police vehicles escorting the 
Chihuahua state governor was fired upon, allegedly by cartel 
gunmen.
    I hope we get some answers as to why it takes so long to 
help our neighbors fight a battle that they are willing to do. 
We do not have time to sit around and postulate, in general 
terms, about our counternarcotics strategy. We need to provide 
help to our neighbors.
    In 2008, more than 5,600 people in Mexico were killed in 
drug trafficking violence, a 110-percent increase over 2007.
    In the first 2 months of 2009 alone, this violence grew, 
with almost 1,000 drug-related murders in Mexico, 146 percent 
over the comparable period in 2008.
    While Texas, New Mexico, Arizona, and California have a 
personal stake in curbing the violence on our border, the 
National Drug Threat Assessment states that these Mexican drug 
cartels have distribution capabilities in 230 United States 
cities. This problem affects all of us.
    President Calderon has devoted billions of dollars and 
deployed thousands of troops and Federal police to curb the 
violence in the northern regions. We joined President Calderon 
in this fight when we appropriated money for the Merida 
Initiative last summer, but it seems to be taking forever to 
get these funds where they are needed.
    It took over 5 months for the United States and Mexico to 
sign a letter of agreement allowing the first $197 million in 
Merida funds to be disbursed, and then, later, in December, the 
Governments of Mexico and the United States met to coordinate 
implementation of the Merida Initiative through a high-level 
group followed by a working-level group on February 3rd, with 
the aim of accelerating the implementation of 48 projects 
through nine working groups from Mexico under the Initiative.
    Mr. Chairman, I know I am almost through with my time, but 
the last meeting was March 2nd, and I know there are things 
that we need to do very quickly to get assistance to our 
neighbors so that they can fight the battle because if they do 
not win that battle, it is going to be fought on our side of 
the Rio Grande River and not on their side. I yield back my 
time.
    Mr. Engel. Thank you, Mr. Green, also under 3 minutes. Mr. 
McCaul?
    Mr. McCaul. I thank the chairman. I will be very brief and 
save my remarks for my questions.
    This issue is, in my view, one of the most important issues 
facing this nation, from a national security standpoint, the 
Merida Initiative, the cooperation with Mexico in combating 
drug cartel violence.
    I would hope that we would focus on that issue and not 
focus on an agenda to place gun control laws in this country 
when we ought to be looking at the laws that apply to smuggling 
weapons south of the border into Mexico.
    I am a former Federal prosecutor. I have prosecuted gun 
cases. It is currently a crime to do that. We ought to be 
enforcing that law that is on the book, and, with that, I will 
yield back.
    Mr. Engel. Thank you, Mr. McCaul. Ms. Giffords?
    Ms. Giffords. Thank you, Mr. Chairman. I appreciate you 
having this hearing today.
    There are 10 of us that have districts that are on the 
United States-Mexico border, and, Ms. Jacobson, I saw you last 
year at the Merida hearing, and, Mr. Johnson, thank you so much 
for being here today.
    I had some real concerns with the Merida agreement, as it 
was first proposed, and I let those concerns be known to all of 
you and saw that we were able to improve the legislation to 
really have the accountability that is necessary.
    I think U.S. taxpayers are willing to step up and take 
responsibility, obviously, for what happens on our borders but 
also to help our neighbors to the South, and we have a good, 
strong relationship with the Country of Mexico.
    The concern about this Merida agreement, and, of course, we 
are going to be looking forward to hearing from you today, is 
really concrete information about how the initiative is working 
and how it is not working. For those of us who are in border 
regions, and, particularly, my sector, which is the Tucson 
sector, by far, the most porous part of the United States-
Mexico border, last year, we seized about 30,000 pounds of 
marijuana; we arrested over 300,000 people, about 320,000. That 
was down from the previous year, where we were close to 400,000 
people in just my sector.
    So if you can also talk about the agreement, but also want 
we are doing, in terms of making sure that we have the 
resources on our side of the border, that would be incredibly 
important.
    We know that guns are being trafficked from Arizona into 
Mexico. We have that information. I am really looking forward 
to getting a better, more concrete idea of, again, how Merida 
is working and not working, but, definitely, Mr. Chairman, we 
need to be able to explain that to our constituents back in our 
home districts. Thank you.
    Mr. Engel. Thank you, Ms. Giffords. Mr. Smith?
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman. 
Unfortunately, there is a China briefing going on, and I will 
have to leave, although I would like to stay. I would like to 
ask our two distinguished witnesses, when you get to the Q&A 
part, and I know, Secretary Jacobson, you do mention it in your 
statement, human trafficking remains an insidious evil: Women 
and children used for sexual exploitation, as well as for labor 
trafficking.
    Mexico, as we know, and the TIP report makes it very clear, 
is a large source, transit, and destination country for persons 
trafficked for the purpose of sexual exploitation and forced 
labor, and the number is put at about 20,000 children, 
according to the report. Organized criminal networks 
traffic<greek-l>k deg. women and girls from Mexico into the 
United States for commercial exploitation.
    As I think you may know, I was the prime sponsor of the 
TVPA, back in 2000, and two of the reauthorizations. I have met 
with parliamentarians, Members of the Congress in Mexico on 
frequent occasions to discuss this. But I would hope that we 
would really, just as we do drug trafficking, which we talk 
about this all of the time, talk about what organized crime is 
doing to exploit children and women as well and to highlight 
that, and perhaps you could get into the nexus as to how these 
criminal organizations are doing this. Is it part of or a main 
part? How much of their resources are devoted to this crime?
    We had a bust in my own state, in Plainfield. Our U.S. 
Attorney, Chris Christi, brought action against younger girls 
who had been trafficked into New Jersey from Mexico. These were 
young, small, petite, little girls, and they were being 
exploited very single day in a suburban community called 
Plainfield, New Jersey.
    We know it is going on all over the country, and it is 
certainly going on inside of Mexico as well.
    I know that the Operation against Smugglers, the Initiative 
on Safety and Security, or the OASIS Project, is a good one, 
and you might want to expand upon it because I do think, again, 
we need to prioritize and keep, publicly, as well, the good 
work that you are doing that often gets underreported upon and 
underappreciated and bring it to the fore on combating human 
trafficking. So if you could spend some of your time speaking 
to that, I would appreciate it. I will look at the record when 
I get back from the other hearing, and I thank you.
    Mr. Engel. Thank you, Mr. Smith. Mr. Bilirakis?
    Mr. Bilirakis. Thank you, Mr. Chairman.
    The escalating violence stemming from Mexico's drug war is 
deeply troublesome. Not only is it affecting the lives of 
Mexican citizens; it is also making the border increasingly 
dangerous for our border personnel and citizens living in 
border communities.
    I commend President Calderon for making the war against 
drug cartels a top priority of his administration, but I am not 
sure if sending over $1 billion in aid and assets to Mexico is 
the solution to this problem.
    With regard to the rising tide of violence in Mexico, the 
safety of our men and women in uniform remains my top priority, 
my top concern, and I am going to demand that those who are on 
the front lines of this battle get the training, resources, and 
support they need to do their jobs as safely and as effectively 
as possible.
    We must act decisively to speed completion of the border 
fence, better equip our border officers and agents, and return 
the use of National Guard troops to the border to support and 
enhance our border security and enforcement efforts. To do 
anything less would be a disservice to our border personnel and 
leave open a door through which criminals, drug smugglers, 
human traffickers, and terrorists can destroy the fabric of our 
society.
    Again, thank you, Mr. Chairman. I look forward to your 
testimony.
    Mr. Engel. Thank you, Mr. Bilirakis. Mr. Delahunt?
    Mr. Delahunt. I just want to commend the chair for this 
hearing. I think it is important, given the reports coming from 
Mexico.
    I think it is very important that we do not equate the 
violence in those areas that are the focus of the violence and 
simultaneously suggesting or inferring that Mexico, as a state, 
is in trouble, or is a failed state. I think that is entirely 
inaccurate and inappropriate.
    I think we have to be focused, in terms of a strategy, 
working with the leadership in Mexico, both in terms of the 
political leadership, as well as public safety.
    This is a hearing that is important, Mr. Chairman, and I 
congratulate you for holding this hearing. With that, I yield 
back.
    Mr. Engel. Thank you, Mr. Delahunt. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you for your focus on this very important issue.
    I come from California. It directly affects my own 
constituents, and I think it affects the future of our country.
    Mexico is descending. I have a little disagreement with my 
good friend from Massachusetts. I believe it is descending into 
chaos and corruption, and we need to make sure that we are 
siding with the good and decent people of Mexico, who are 
struggling organized criminal elements who would take over 
their country, and they are doing so at great risks to 
themselves.
    We should start, number one, but establishing a border, 
which we have no administration, the last administration nor 
any administration before it, has been willing to do: Establish 
a Mexican-American border. That has to be Step No. 1 for us to 
succeed in trying to get control of this situation.
    But, number two, we need to reexamine this whole ``War on 
Drugs.'' The War on Drugs has been a catastrophic failure. I do 
not think that the War on Drugs has prevented anybody from 
using drugs in the United States. The only result that we can 
see from it is the unintended consequences of creating an 
incredible threat to countries like Mexico.
    Again, I think the heart of the matter is that drug use in 
the United States fuels all of the problems we have been 
hearing about today, yet we are not talking about that.
    The drug war has been a failure, and the Mexicans are the 
victims of our failure in the drug war.
    Perhaps we should understand, when we outlawed alcohol, the 
same sort of corruption and organized crime emerged throughout 
the United States, threatening our society back in the 1920s.
    We need to take a whole new approach to drugs, and the 
problems in Mexico and elsewhere might be solved. I think we 
need to talk honestly and seriously about it, and people have 
not been doing that because they are afraid of the political 
repercussions of doing so. Thank you for holding this hearing.
    Mr. Engel. Thank you, Mr. Rohrabacher.
    I would now like to welcome our colleague, Mr. Cuellar, who 
does not serve on our committee but serves on the Homeland 
Security Committee and was one of the Members who came with us 
on our recent trip to Mexico. I would like to give Mr. Cuellar 
a chance to make a statement.
    Mr. Cuellar. Mr. Chairman, thank you very much, and I also 
appreciate the visit that you have done in Mexico and the 
leadership that you have provided on this particular issue, and 
I certainly want to thank Secretary Johnson and Secretary 
Jacobson for the work that they have done on the Merida 
Initiative, along with our former Ambassador, Antonio Garza.
    I live in Laredo, right on the border, the largest inland 
port down there. When you talk about the $1 billion of trade 
between the United States and Mexico on a daily basis, 40 
percent of all of the trade that comes between the United 
States and Mexico passes through my land port, 40 percent of 
it. We get $13,500 trucks a day going north and southbound. 
That does not include the railcars and does not include the 
pedestrian or noncommercial traffic.
    We understand how important the border is. It is a 2,000-
mile border that we have, and we understand the importance of 
the dynamics that we have there, and I guess, about 4 years 
ago, when I got elected congressman, we were having the issues 
of the missing Americans down there, and, at that time, I was a 
lonely voice talking about this particular issue, and I 
predicted that when this situation got to a crisis is when 
Congress will start reacting, and I am glad that we are now 
paying attention to an issue that folks who have lived on the 
border have seen this violence because we have seen the border 
being transformed from a very peaceful time when you could go 
walk across the border to now a situation that you have to 
think about it before you go down there.
    I am glad that we are focusing on that and the Merida 
Initiative, but we also have to look at how we can look at some 
sort of joint commission between the United States and Mexico 
to work on this issue because, on the U.S. side, for example, 
look what we have done to the southern border members. Since 
1993, we have had Operation Blockade, Operation Hold the Line, 
Operation Gatekeeper, Operation Safeguard, Operation Rio 
Grande, Operation Triple Strike, Operation Return to Sender, 
Operation Jump Start, the National Guard Operation Full Court 
Press.
    Even in the State of Texas, and this is, you know, guarding 
the border, we have had Operation Linebacker, Operation Border 
Star, Operation Texas Border Watch, and, I think, one new one 
in Texas.
    So I think the dynamic calls for us to work jointly with 
Mexico. I think that is a smart way of providing this.
    There are a lot of ideas on how to do this, and I think, 
today, we will start talking about some of the suggestions we 
have.
    I do want to say that my colleague and I are with the 
Hispanic Caucus. We were with President Obama on immigration, 
and he said that the first country he is going to visit in 
Latin America is going to be the Republic of Mexico to speak 
with President Calderon on various issues, and I am sure this 
is one, and, certainly, when Secretary Clinton visits, next 
week, the 25th and 26th, I am sure this is a very important 
issue, and I know that the chairman has spoken to her and some 
of us have talked to her about how this issue is so important.
    So we appreciate it. We look forward working with you as a 
team on a very important issue that affects both sides of the 
border. Thank you.
    Mr. Engel. Thank you, Mr. Cuellar. You gave me a great 
segue to making an announcement I was going to make. We have 
just heard that, on April 16th and 17th, President Obama will 
visit Mexico, and it is just being announced by the Mexican 
Government and our Government as well.
    That is significant, of course, that he is going, and April 
17th is the Summit of the Americas in Trinidad, and, by the 
way, I am leading a bipartisan delegation to that, and Mr. Mack 
is joining us as well. It is interesting that the Summit of the 
Americans begins on April 17th.
    So, President Obama has chosen to visit Mexico the day 
before the summit begins and the day the summit begins, so I 
cannot think of a better time for him to go down there. I think 
it is very, very important. Thank you.
    Well, it is now time for our two distinguished witnesses. 
Some of the trials and tribulations of being the witness is 
that you have to listen to all of us first before you can 
speak, but I saw you taking copious notes, both of you, and I 
hope that what you have to say is in line with many of the 
things that we have to say.
    Before I call on you, I just want to say, some of my 
colleagues on the Republican side have said that the law is on 
the books to prevent the smuggling of weapons and that we 
should enforce it. I could not agree more. I think we are all 
in agreement about that. These laws are on the books, and they 
should be enforced.
    We do not need additional legislation right now to enforce 
these laws. We should enforce it. While it is true that these 
criminal elements could get their guns elsewhere, as my friend, 
Mr. Burton, said, I think that we need not make it easier for 
them. We should make it harder for them by denying them access 
to American guns or guns coming in from America.
    I certainly agree with enforcing the laws that are on the 
books, and, with that, let me say, again, we have our two 
distinguished witnesses from the State Department.
    David Johnson is assistant Secretary of State for 
International Narcotics, which, Mr. Secretary, as you can see, 
we are very concerned up here, on both sides of the aisle, and 
also Law Enforcement Affairs as well; and Roberta Jacobson is 
deputy assistant Secretary of State for the Western Hemisphere.
    So thank you, the both of you, and we will start with Mr. 
Johnson.

 STATEMENT OF THE HONORABLE DAVID JOHNSON, ASSISTANT SECRETARY 
OF STATE, BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Johnson. Thank you very much, Mr. Chairman, Ranking 
Member Mack, and members of the committee. We appreciate the 
opportunity you are giving us today to discuss the Merida 
Initiative, our security cooperation partnership to combat 
narcotics-fueled organized crime and narcotics trafficking in 
Mexico, Central America, and the Caribbean.
    Our partner nations are already working hard to fight these 
transnational criminals. They are demonstrating unprecedented 
courage and determination. We believe that, with our help, they 
can do much more.
    Since his inauguration in December 2006, Mexican President 
Calderon has taken decisive action against transnational 
criminal organizations. Under his leadership, counternarcotics 
and law enforcement operations have expanded throughout Mexico, 
and he has begun the arduous task of large-scale police and 
rule-of-law reform. His efforts to combat corruption, confront 
powerful criminal syndicates, improve coordination among 
security agencies, modernize Federal law enforcement agencies 
and professionalize their staff are, indeed, without precedent.
    But as President Calderon confronts the transnational drug 
trafficking organizations that threaten his country and the 
region, violence has climbed markedly. In Central America, 
overwhelmed police face extraordinary challenges as criminals 
step up their murder, extortion, kidnapping, and robbery. Gang 
members migrating both within Central America and from the 
United States take advantage of the breakdown in law and order 
and expand the neighborhoods they exploit.
    Failure to act now could mean that crime becomes even more 
entrenched, and the consequences of dealing with these problems 
later will be greater for all. With our help, we expect that 
these countries can make real progress. With their sustained, 
long-term efforts, buttressed by our assistance, they can 
emerge stronger, with more resilient democratic institutions, 
and with greater capacity to respond to the needs of all of 
their citizens.
    One area where we are working to enhance cooperation is in 
seeking ways to curb the flow of arms and cash south into 
Mexico. Illegal drug proceeds are used to purchase weapons that 
drug trafficking organizations and associated armed groups use 
to battle each other, as well as the institutions of the 
Mexican Government.
    One of the results of this arms traffic is that violent 
drug trafficking organizations operating in Mexican border 
cities have accelerated their firepower to truly alarming 
levels.
    As the United States continues its partnership with Mexico 
under the Merida Initiative, we will work closely with U.S. law 
enforcement agencies as they marshal resources at all levels to 
develop an effective, coordinated, comprehensive response to 
the threat of illegal weapons.
    It is crucial that our assistance programs, under Merida, 
provide the tools to extend credible deterrence across the 
country, giving law enforcement the ability to reach high-value 
targets and eliminate their threat to the rule of law. That is 
the reason helicopters play such a key role in the program for 
Mexico.
    Mr. Chairman, the countries of the Caribbean, Central 
America, and Mexico face an extraordinary challenge from drug-
fueled, organized crime. Merida, in and of itself, will not 
fully address the problems this crime wave inflicts, but it 
will give us and our partners crucial tools to address the 
challenge effectively and help build the rule of law in our own 
neighborhood.
    Thank you for your time, and I look forward to your 
questions.
    [The prepared statement of Mr. Johnson 
follows:]<greek-l>David Johnson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Johnson. Ms. Jacobson?

    STATEMENT OF MS. ROBERTA S. JACOBSON, DEPUTY ASSISTANT 
SECRETARY OF STATE, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Jacobson. Mr. Chairman, Ranking Member Mack, and 
distinguished members of the subcommittee, thank you all for 
the opportunity to appear before this committee and discuss 
Mexico and the Merida Initiative at this critical juncture.
    We appreciate the strong leadership that you and your 
colleagues on this committee have demonstrated on this vital 
issue. Your visit to Mexico and meeting with President Calderon 
last month was timely and helps us underscore the importance we 
attach to the issue.
    Mexico and the countries of Central America and the 
Caribbean are passing through an extremely difficult and 
challenging period. Powerful, organized criminal groups based 
in Mexico are engaged in an all-out struggle to dominate and 
control the lucrative trafficking routes in the region.
    The cartels use the harshest and most appalling violence 
against the Mexican security forces and against each other. 
They are targeting police, military, and other security service 
personnel and using graphic displays of public violence to 
intimidate communities.
    The three-way conflict in which cartels battle rival gangs 
and attack state authorities represents a significant threat to 
Mexico, our nearest neighbors, and our own national interests. 
While the situation is serious, let me affirm that we are not 
talking about a failed-state scenario for Mexico. Mexico is a 
strong democracy with a burgeoning network of civil society 
organizations and democratic institutions.
    Clearly, the cartels want to weaken the state so that it 
will be unable to interfere with their activities, but the 
Calderon government has shown itself willing and able to 
respond to that and assert its authority.
    Our response to the request of President Calderon is the 
Merida Initiative. The Merida Initiative recognizes the 
transnational nature of the challenge and provides a framework 
to collaborate with our neighbors to confront these threats to 
the welfare, prosperity, and security of our citizens. While 
our focus here today is Mexico, I want to underscore and agree 
with the chairman that we recognize the threat is regional, and 
our response has to be regional as well.
    More than just assistance or training, Merida embodies 
partnership. The model of cooperation reflected in the Merida 
Initiative has the potential to transform our relationship with 
Mexico and our other Merida partners. This partnership between 
and among cooperating agencies ensures that traffickers can no 
longer exploit by national differences to ply their deadly 
trade.
    The expanded collaboration is unprecedented and, over time, 
will build confidence and result in even more effective 
operations based on shared information.
    Mexico has taken many important steps on its own, deploying 
the military in large numbers and undertaking operations 
against organized crime, professionalizing their police force 
and prosecutors, extraditing top drug bosses, instituting long-
term reforms to improve the effectiveness of Mexican judicial 
institutions, and removing Mexican officials linked to crime 
syndicates and corruption.
    Moreover, President Calderon has also launched critical 
social, development, and health initiatives to reclaim Mexico's 
public spaces and confront the increasing demand for drugs 
within Mexico.
    All of us would like to see the equipment and training 
under Merida delivered as quickly as possible, but it is also 
true that the partnership the Initiative seeks to build has 
begun.
    Merida is both a robust assistance package, where we work 
directly with the countries of Mexico, Central America, and the 
Caribbean to address immediate needs, and a long-term 
partnership to address those longer-term needs together.
    This means that we, in the United States, must take 
effective steps to reduce the drug demand that fuels illicit 
narcotics trafficking, curtail the export of illegal weapons to 
Mexico, and disrupt the bulk transfer of cash from drug sales. 
U.S. agencies are fully engaged in this effort.
    Finally, I want to emphasize that we appreciate the funding 
that Congress has given us for Merida through the Fiscal Year 
2008 supplemental and the Fiscal Year 2009 Foreign Operations 
Appropriations Act.
    We look forward to working with Congress to fulfill the 
$1.4 billion commitment made to Mexico.
    I would be happy to take any questions that you have. Thank 
you very much.
    [The prepared statement of Ms. Jacobson 
follows:]<greek-l>Roberta Jacobson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you both very, very much.
    Let me ask you this. We have talked a lot about the Merida 
Initiative, and I am a very, very strong supporter of it. Last 
year, the House passed a Merida Initiative authorization bill 
that did not become law, as you know. There was a sense of 
Congress that there should be an effective strategy to combat 
illegal arms flows.
    So let me ask you, as part of implementing Merida, has the 
U.S. Government developed, or is it in the process of 
developing, a comprehensive, interagency strategy for combating 
illicit arms trafficking into Mexico, and, if not, will the new 
administration seek to develop a strategic approach to stem the 
flow of illicit arms to Mexico?
    If you could also mention, in your answer, how are U.S. 
agencies working with Mexican authorities to combat arms 
trafficking, and what challenges confront U.S. agencies working 
with Mexican Government entities to combat arms trafficking? 
Why don't we start with Ms. Jacobson?
    Ms. Jacobson. I think that we do have a strategy to work 
with Mexico on combating the trafficking in arms. That 
strategy, obviously, is bifurcated. We are working, through the 
Merida Initiative, with the Mexican Government. U.S. agencies 
are working on domestic law enforcement on the U.S. side of the 
border.
    One of the ways in which we are doing that is increasingly 
working together with Mexico along the border. There are 
increasing numbers of Mexican officials working with U.S. 
Government law enforcement agencies in the Border Enforcement 
Security Taskforces and in the Border Liaison Mechanisms that 
we have. We have something called the Border Violence 
Protocols, which are processes and systems that we have put in 
place to respond to violence along the border and to ensure 
that information and intelligence that is gathered is utilized 
appropriately by both sides.
    In the Merida Initiative, I think there are a number of 
areas, and I think Assistant Secretary Johnson can expand on 
this, which do get at the issue of arms trafficking.
    For example, one of the larger areas of the Merida 
Initiative is nonintrusive inspection equipment; inspection 
equipment that is designed to be used at ports of entry or in 
the interior of Mexico to stop all forms of contraband, to stop 
contraband in drugs, in weapons, in bulk cash, and, indeed, in 
trafficking in persons, and the Mexican expansion of the use of 
that equipment, I think, will have an effect on arms 
trafficking as well.
    The Mexican Government is also expanding its efforts along 
its side of the border to inspect vehicles coming into Mexico 
for illicit cargo, and they have begun, in Matamoros, a plan to 
expand that effort across the border during this year.
    So I think there are a number of areas in which we are 
working together quite effectively.
    Mr. Engel. Thank you. Mr. Johnson?
    Mr. Johnson. Just to add a couple of points, there are 
ongoing operations by our law enforcement agencies--the DHS, 
ICE, Operation Armas Cruzadas, going on for 6 months now--which 
have already resulted in 104 criminal arrests, the seizure of 
420 weapons, and more than 100,000 rounds of ammunition, and 
that is one of the cooperative programs. ATF, of course, has 
Project Gunrunner. I do not have the same statistics for it.
    On the assistance that we are providing under Merida, 
Congressman Green mentioned $193 million as part of the letter 
of agreement that we signed with Mexico in December. Almost 40 
percent of that is devoted to nonintrusive inspection 
equipment, and $40 million worth of that equipment will be 
provided to the Mexican Federal Police. We have come to an 
agreement with them already on the exact specifications and 
expect the procurement to begin forthwith.
    We are working out the final pieces on specifications with 
Mexican Customs for the remaining $30 million, and we 
anticipate that those devices, which are highly specialized and 
similar, if not exact, to the ones that are own border 
enforcement agencies are using, to be available in the 
September timeframe, allowing us to give the Mexicans the kind 
of capacities that we have. They already have some of these 
machines, but they need significantly larger quantities of them 
to allow them to detect bulk cash, as well as firearms that are 
moving across the border.
    So there is a significant element of the package that is 
devoted exactly to this problem.
    Mr. Engel. Let me ask one follow-up question and then turn 
it over to Mr. Mack, and I know we have some pending votes as 
well.
    This is a very practical question. Does Mexico check every 
vehicle and person crossing the border into Mexico, and, if 
not, why not? What would happen if the Mexican Government 
inspected every vehicle as it entered Mexico? I know it would 
back up the vehicles, but where do inspections of vehicles take 
place in Mexico, and what percentage of vehicles entering 
Mexico are inspected?
    In conjunction with that, should Mexico's police and border 
patrol be doing more to stop the firearms entering their 
country? And what is the status of our talks with Mexico to 
better coordinate which nation has responsibility for which 
border activities? Have the Mexicans asked us to check vehicles 
and persons moving south or some or all border crossings, and 
how would you respond?
    I provided all of those questions because it is a very 
practical thing about border crossing, so whoever would like to 
answer.
    Ms. Jacobson. Thank you, Mr. Chairman. The Mexican 
Government, at this time, along the United States-Mexican 
border, is not checking 100 percent of all vehicles going into 
Mexico.
    What I talked about, in terms of their new program that 
they are beginning to implement, will use all forms of 
technology, including beginning to get a database to do 
targeting appropriately based on intelligence, use of scales, 
cameras. All of that equipment is not yet deployed along the 
border, and so they are not checking 100 percent of vehicles 
coming in.
    But in the location that they have begun to implement that 
equipment, Matamoros, they are checking a much larger number of 
vehicles than they have in the past--in the past, it was more 
random checks--and some of those checks and moving vehicles 
into secondary inspection allows them to do canine revision and 
other forms of checks.
    I think, on the whole, we are working increasingly well 
with Mexico. In terms of who has responsibility, I think those 
responsibilities are quite clear, in terms of which agencies of 
the U.S. Government have responsibility for our side of the 
border. There is a great deal of communication that takes place 
between our CBP, ICE, and other officials on the United States 
side of the border and those from Mexican Customs, for example, 
who operate on the Mexican side of the border.
    Mr. Engel. Mr. Johnson?
    Mr. Johnson. The only thing that I would add is that there 
is a double layer in Mexico at the northern border, where they 
have an additional inspection of some approximately 70 
kilometers inside the border, and they are undertaking a 100-
percent inspection already there, but, of course, that does not 
address the immediate border region and, in some cases, may 
point to what could be done, and what we expect will be done, 
as they expand this program throughout the border.
    Mr. Engel. Well, thank you. Obviously, that is crucial, and 
we need to think of ways to change what is happening today. We 
need to have, I think, more accurate and greater inspections at 
the border. Mr. Mack?
    Mr. Mack. Thank you, Mr. Chairman. First, I would like to 
ask unanimous consent to submit additional materials for the 
record.
    Mr. Engel. Without objection, so ordered.
    Mr. Mack. First, I want to thank you for your testimony and 
your insight on today's hearing, and I wanted to see if I could 
get some feedback about the recent $300 million for Mexico that 
we just approved and, specifically, in the intelligence 
community, if you could expand a little bit on how the 
intelligence community could help in the fight against drugs in 
Mexico.
    I also had another question, and you guys can take this in 
either order you want, but if you could talk about what some of 
the other countries are doing in Latin America to ensure that 
guns are not being moved across their borders into Mexico, and 
that opens up another question, which is, when the chairman and 
others talk about the 90 percent or so of the guns being used 
are from the United States, are we getting an accurate count? 
In other words, is there a portion of it that is being left out 
because we do not know where they are coming from?
    So if someone has some specifics on that data, I would like 
to see that as well. Thank you.
    Mr. Johnson. Mr. Chairman, we have a program underway, as 
part of this Initiative, that is going to give countries 
throughout Latin America access to the eTrace system of ATF. 
One of the challenges with that system now has been that it is 
based on English-language conventions only, and we have been 
working with a vendor ATF has to provide Spanish-naming 
conventions and Spanish-language capability for it, which will 
make it significantly more accessible.
    We anticipate that that will be completed by December of 
this year. We have programs in Central America which will 
provide, under the Merida Initiative, funding for installation 
of necessary materials and equipment and training of personnel 
so that it can be used effectively. But we do anticipate and 
plan for it to be made available throughout Latin America so 
that there will be an availability of this system to trace 
weapons.
    In terms of the question you raised about where the guns 
are coming from, if you will, we do not have 100-percent 
accuracy on the origin, but we do believe that the 90-percent 
figure is likely to be quite accurate for Mexico.
    For Central America, on the other hand, most of the guns 
that have been found in that area that are illegally owned and 
used by narcotraffickers have originated in the wars of that 
region in the eighties and nineties and are surplus weapons 
that are already in the area.
    Mr. Mack. Can you respond a little more with the $300 
million that was passed by Congress on the intelligence 
community and what kind of expansion, and how can intelligence 
communities around Latin America be helpful?
    Mr. Johnson. Well, the monies that you are referring to are 
used for foreign assistance and not for intelligence funding. 
That will be funded separately by separate appropriations.
    As to exactly how these monies are going to be used, it 
was, of course, slightly less than what was requested, so we 
are in the process of doing some trimming and fitting, and I 
think we are working on that as we speak.
    Mr. Mack. Thank you. Do you have a response, Ms. Jacobson?
    Ms. Jacobson. I do not have anything further.
    Mr. Mack. Okay. All right. Thank you.
    Mr. Engel. Okay. Thank you, Mr. Mack.
    As you can hear, we have a series of votes--I am told there 
are seven--so it is likely to be an hour, or even a little bit 
more. So what we will do is we will recess until 10 minutes 
after the last vote and come back probably in about 1 hour and 
10 minutes, something like that. It might be a little earlier 
than that, but we will say, 10 minutes after the last vote. So 
the subcommittee is in recess until then.
    [Whereupon, at 3:10 p.m., a short recess was taken.]
    Mr. Engel. The subcommittee will come to order. I know we 
were in the middle of asking questions to our witnesses, so I 
thank the witnesses for bearing with us. It is not all that 
unusual, with a large series of votes in the middle of the 
afternoon, but those were the last votes of the day, so I guess 
they figured they would put it all together.
    Thank you for your patience, and Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman. Thank you very much for 
your patience.
    I just want to get back to one of the original questions 
regarding searching the vehicles and searching border 
crossings. I do not have my notes in front of me, but I thought 
you said that, on the Mexican side, it is 70 kilometers from 
the border that they check these vehicles.
    Mr. Johnson. What I said was that they have checks on a 
selection of vehicles at the border itself, but they have, in 
the interior of the country, 70 kilometers in, they have 
another check, and, at that point, they are, we understand, 
checking all, or virtually all, vehicles.
    Ms. Jacobson talked about a program which is just getting 
underway, which is being used fully now, I believe, only in 
Matomoros, but will expand across the entire northern border 
over the course of this year, which will check 100 percent of 
the vehicles at the border proper.
    Mr. Sires. But currently they were doing random checking at 
the border, and they were doing vehicles, 100 percent, 70 
kilometers.
    Mr. Johnson. That is correct.
    Mr. Sires. Why 70 kilometers? Who came up with that idea?
    Mr. Johnson. I think it has to do with their estimation of 
where the traffic will flow on into the interior of Mexico, and 
they want to make more extensive checks at that point.
    Mr. Sires. It seems to me that there are 70 kilometers 
where there is going to be a lot of mischief.
    Mr. Johnson. I think that is the case, and that is the 
reason they are moving to 100 percent at the border itself. 
There is a substantial larger volume that just crosses the 
border for a short period of time. So it is a different level 
of logistical challenge that they are having to take on.
    Mr. Sires. Thank you. The other question that I had: I was 
a supporter of the Merida Initiative, but my concern was always 
that there was a disproportionate amount of money spent on 
Mexico, and I always thought that it should have been a 
regional approach because I think that the reason it developed 
in Mexico so quickly is because the Colombians were effective 
in dealing with the drug traffickers.
    So if you plug a hole here, it is going to go someplace 
else, and I know that they sent money for some of the other 
countries, but I just think it is just not enough.
    So if we are successful down the line in dealing with the 
Mexican issue, it is just going to pop up someplace else.
    Ms. Jacobson. Well, I think that is exactly right, 
Congressman, and I think that is one of the reasons why, when 
we started with Merida, it was Mexico and Central America, and 
there were, obviously, very big differences in the amounts of 
money for each, but we thought it was important that when we 
start in Central America, we would build that program up 
because there was not the same amount of capacity as Mexico had 
to absorb funds and begin working.
    As you know, the funds in Fiscal Year 2008 for Central 
America were $50 million; the funds in Fiscal Year 2009 are 
about approximately $100 million. So we are building up the 
Central America program.
    In addition, we have begun a security dialogue with the 
Caribbean because there is no doubt that, to the extent we have 
success through the Isthmus, trafficking may return to areas of 
the Caribbean, and so that is something that we are looking at 
very closely, beginning a security dialogue with the Caribbean, 
so that we can look at what kinds of resources might be needed 
there as well.
    Mr. Sires. My understanding is that, the Hispaniola, there 
is a great deal of traffic<greek-l>k deg. into the country.
    Mr. Johnson. There is a significant flow out of western 
Venezuela, in particular, to the Dominican Republic, a 
significant number of aircraft making circular runs and 
dropping.
    Mr. Sires. In Haiti also, I understand.
    Mr. Johnson. In Haiti, but I think there is a significantly 
larger amount going into the Dominican Republic, at this point, 
based on the radar tracks. Both ends of Hispaniola, if you 
will, could use significant assistance, and the legislation 
provides for the beginning of a program, and it may need to be 
plussed up some.
    Mr. Sires. Are they cooperative now? How cooperative are 
some of these places, like Dominican Republic?
    Mr. Johnson. The Dominican Republic is quite cooperative. 
They have a capacity limitation, and what we need to work with 
them on is an ability to use some of their own helicopters and 
perhaps, at some point in the future, look at additional ones 
because what happens is these aircraft drop into landing zones, 
and you have to be able to get there relatively promptly, or 
the product that they are dropping gets taken away and bleeds 
into the marketplace.
    Mr. Sires. In Puerto Rico, how is that? I am getting away 
from Mexico, but I was just curious about the Caribbean Basin.
    Mr. Johnson. I think, based on the radar track readings, 
they are not getting that far, at this point. Now, there may be 
onward shipments that flow into the normal civil aviation flow, 
but in terms of contraband aircraft that are flying outside of 
scheduled aviation space, I do not think there is a significant 
amount there.
    Mr. Sires. Have you tracked any arms into the Dominican 
Republic from the United States?
    Mr. Johnson. I am unaware of a significant arms flow into 
the Dominican Republic from the United States. I will look into 
that and get back to you, Mr. Congressman, because it is an 
issue I do not want to speculate on.
    [The information referred to follows:]

Written Response Received from the Honorable David Johnson to Question 
         Asked During the Hearing by the Honorable Albio Sires

    According to law enforcement agencies in Santo Domingo, there have 
been a few isolated incidents of arms being smuggled into the Dominican 
Republic from the United States, but these were not significant enough 
to represent a trend.

    Mr. Sires. Thank you very much, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Sires. Mr. Burton?
    Mr. Burton. Mr. Chairman, I apologize. I hope Mr. Mack gets 
back here. I have to leave. I have a meeting in my office at 5 
o'clock, and I do appreciate you letting me make a couple of 
comments.
    One of the things that I have been very concerned about, of 
course, is the Second Amendment, and I heard your testimony 
earlier. I have here before me a complete analysis of the 
Russia and Venezuela Agreements and what they are doing, and 
the reason I bring this up is because Venezuela, with their oil 
money and Chavez being an expansionist who wants to expand his 
sphere of influence, his Bolivarian revolution, throughout 
Central and South America, is, long term, a real threat, and he 
has brought in 100,000 AK-47's to replace weapons that are 
already there, and we do not know what happened to the rest of 
those weapons, plus he has got a contract to manufacture more 
AK-47's, which is beyond the capacity of his military right now 
to use them, so we do not know where they are going.
    The reason I bring that is up is the ability of terrorist 
drug dealers to acquire weapons, and I am talking about not 
only AK-47's and other handguns and rifles and things like 
that; they also have the ability, through people like Chavez, 
to get weapons that are much more dangerous that they could not 
get, or will not be able to get, here in the United States 
unless they are able to get them through the black market, 
through some kind of military avenue.
    So the point I wanted to make, and I will not ask any 
questions, is that I hope, as we go through this whole issue of 
how we deal with the problems on the Mexican-American border, 
we realize that there are other avenues through which the 
Mexican terrorists and drug dealers are able to get these 
weapons, and if they cannot get them here illegally, then I 
think they will get them someplace else. They may have to pay a 
little bit more money.
    When you realize that these people have literally rooms 
full of money, not just small amounts--I mean, rooms full of 
money--the ability of them to buy these things, I think, is 
just unbelievable.
    So I just wanted to put that into the record, Mr. Chairman. 
I am for stopping the illegal sale of weapons across the 
Mexican-American border. I am for doing everything we can to 
work with Mexico to solve those problems, but I do not think we 
should be under any illusion that if we are able to stop 
completely the sale of weapons across the Mexican-American 
border from the United States that we will be able to stop them 
from getting them someplace else. Thank you.
    Mr. Engel. Thank you, Mr. Burton. Mr. Green?
    Mr. Green. Thank you, Mr. Chairman.
    I mentioned, in my opening statement, that it took 5 months 
for the United States and Mexico to sign a letter of agreement 
allowing the first $197 million in Merida funds to be 
disbursed. There have been meetings since, the last one on 
March 2nd.
    I know you started to break down the numbers during 
Chairman Engel's questions, and can you give me a further 
breakdown on where the money has gone so far? I apologize, 
because of between votes and the long timeframe that we have 
had between earlier testimony.
    Mr. Johnson. The monies that were obligated, or that became 
available, after the letter of agreement was signed, on 
December 3rd, are the International Narcotics Control and Law 
Enforcement funds that were originally appropriated. Those 
funds will be flowing out, I think, at a relatively rapid rate 
now to fund the programs dedicated principally to this 
nonintrusive inspection equipment and to training programs for 
Mexican law enforcement to additional hardware that they are 
required to completely modernize their evidence collection and 
record-keeping projects that will allow them to put identity 
cards on every one of their police officers--Federal, state, 
and local--ones that will allow them to have vetted all of 
their police officers at the Federal level; a series of 
programs such as that.
    Additional monies were appropriated under the FMF account. 
Those monies are for helicopters. The procedures are 
significantly different there. The letter of request from 
Mexico came in the late fall, around the time that the letter 
of agreement was signed. That set in motion a chain of events, 
which led to the notification of Congress.
    You and your colleagues here very graciously waived the 
informal period of consultation that was required. The formal 
period is underway. I understand that will expire on April 3rd, 
and, at that point, the contracting can get underway, and we 
can get into a delivery schedule for the aircraft that were 
appropriated under the original bill.
    Mr. Green. So the money really did not start flowing until 
the early part of this month, March, even though the agreement 
was signed in December.
    Mr. Johnson. Well, some of the monies have begun to flow. 
There was a server farm which was bought quite rapidly after 
that was signed in December itself, but the bulk of the monies, 
yes, are now beginning to flow because of the nature of the 
equipment that is being acquired and its technical nature, as 
well as the lead time for manufacturing it.
    Mr. Green. I know I read an article--I do not know if it 
was in Mexico or from the United States that talked about one 
of the big needs of the government is, you know, if I have a 
warrant for me in Houston, Texas, believe me, if I am stopped 
here in DC, they will be able to find out about that, and that 
was part of the original request, a system where, if someone 
has a warrant in Tijuana, and they are stopped in Monterrey or 
in Matomoros.
    Is that part of the request, because I know that there was 
an effort--I know that there is probably some money that they 
are appropriating on their own, but is part of our effort to 
assist them in having that kind of network?
    Mr. Johnson. Yes, sir, it is, and the server farm was 
dedicated to that very project. It will come online, I believe, 
fully, in July.
    Mr. Green. Are there any efforts in the administration--I 
know some of the efforts were just announced yesterday, and 
maybe you can tell us--sending more agents to the border, both 
ICE and also ATF agents? Was that the announcement in the last 
day or two?
    Mr. Johnson. Mr. Congressman, I read the announcement as 
well. That is beyond the scope of my authority.
    Mr. Green. Okay.
    Mr. Johnson. I would be glad to look into that for you.

Written Response Received from the Honorable David Johnson to Question 
          Asked During the Hearing by the Honorable Gene Green

    On March 24, the Administration announced a comprehensive response 
to border security issues, including additional personnel from DHS and 
DOJ being deployed to the Southwest border. I would refer you to those 
agencies for additional details.

    Mr. Green. Okay. Well, I know there is more, and I have to 
admit, we have a governor who wants the National Guard there, 
and, hopefully, we are not to that point, that we need them. We 
could use law enforcement right now along the border.
    According to some analysis, the realignment of the Mexico's 
drug syndicates in 2008 in their violent turf battles appear to 
be the result of splintering of the so-called Sinaloa 
Federation of DTOs and the emerging DTOs once thought to be 
obsolete, which are battling for control of national markets 
and transport routes.
    The seven major cartels that once controlled Mexico have 
reconfigured. Do you agree with what is happening? I think 
sometimes, as soon as we think we know the players, the players 
change, or they split.
    Mr. Johnson. We believe that the pressure that the Calderon 
government is putting on these cartels, yes, is causing them to 
change their behavior, and, in fact, one of the things that it 
is doing is causing them to branch out into other areas of 
crime, and that is one of the problems that they are having to 
deal with now, with the kidnappings and murders for hire and 
issues related to that.
    So, yes, it is changing, but it is changing because of the 
efforts that the Mexicans have underway to put pressure on 
these organizations.
    Mr. Green. I have run out of time, but I appreciate the 
testimony, Mr. Chairman. If there is anything we can do to 
speed the technology, again, our neighbors are fighting, 
literally, a war, and if we do not help them, surely, we will 
have to deal with it. So thank you, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Green. Mr. McCaul?
    Mr. McCaul. Thank you, Mr. Chairman. I also want to thank 
the two of you for your public service, and I know you have 
been at this for quite some time, and I know you have worked 
hard on the Merida Initiative, and I want to congratulate you 
for everything you have done.
    It is a very historical time. When you have 6,000 killings 
in Mexico last year, more than the Iraq and Afghanistan wars 
combined, when the Department of Justice reports that 230 
cities are impacted, when the greatest threat from organized 
crime are Mexican gangs, we have a serious problem.
    I wanted to ask you, specifically, a couple of questions, 
and, I do not know--it may be out of your realm, but as it 
relates to Merida. We had Secretary Napolitano testify before 
the Homeland Security Committee--I am ranking on the 
Intelligence Subcommittee. In my view, the intelligence 
sharing; I think we can have sharing on both sides of the 
border. We share this problem together.
    We have met with President Calderon. He says it is a war, 
and I believe him. I think it is. We ought to be working 
together, in an intelligence fashion. We are working together 
in a law enforcement fashion, but I think we also need to be 
looking at the assistance which we are providing under Merida 
in a military fashion and how those resources can be borne with 
the best results.
    I think, at the core, Merida, essentially to me, is 
military training and assistance to the Mexicans and, 
specifically, their army, so they can combat these drug 
cartels, who their own President says they are at war with.
    I agree with the chairman that the appetite and the 
consumption for drugs funds this war, and the weapons that are 
shipped down to Mexico from the United States arm this war, in 
large part. So it is a comprehensive issue.
    So, having said that, and I know the eTrace program is 
starting to bear some fruit, in terms of where these weapons 
are coming from, but if you could expand a little bit more, in 
terms of how are we really working together with the Mexican 
Government, law enforcement, intelligence, military?
    Mr. Johnson. Mexican President Calderon, when he came into 
office and was confronted with this systemic challenge, he saw 
the army as a necessary element of having to deal with it 
because it was an effective and reliable instrument of the 
state and that it was a bigger problem that could be handled by 
the police themselves, but, at the same time, they do not view 
the military as the long-term solution.
    Significant parts of the Merida funding do provide 
resources for the military, the Bell 412 helicopters in the 
initial tranche of funding, for example, but much of the 
funding is actually dedicated to modernizing and systemically 
improving the Mexican Federal Police, and that is the aim of 
the Mexican Government, and I think that is one reason that 
this is probably going to take longer than perhaps one would 
like, but it is aimed at systemically changing the way the 
Mexican police force works, its reliability, the way it 
collects evidence, and the type of capabilities that it has.
    So that is the way the Mexicans see it, and this is a 
partnership, and we are trying to help them move forward with 
this program that they have and add value to it and add assets 
that we think are catalytic in nature.
    On the side of sharing information, we have a liaison 
officer now for Mexico at the El Paso Intelligence Center so 
that there are capabilities there, and there are liaison 
relationships at other Federal installations as well.
    So I think we do have an active sharing of information now, 
which is truly different than it was before we started looking 
at this program the way we are now.
    Mr. McCaul. And has the Merida Initiative advanced that? I 
am a member of the U.S.-Mexico Interparliamentary Group. When 
we say, ``Well, you are violent, and your drug cartels are a 
problem,'' they point the finger to us that we consume the 
drugs, we provide the weapons. I think we share this problem. 
We need to work together with the Mexican Government to resolve 
it, and I think that is what this is really all about.
    Ms. Jacobson, did you have a----
    Ms. Jacobson. I think that is absolutely right, 
Congressman, and I think that, in that respect, as I tried to 
sort of stress in my opening remarks, in that respect, I think 
the Merida partnership is already working.
    The attorney general mentioned, when he announced the 
results of Operation Accelerator recently, that those results 
were gotten, in part, because of cooperation with the Mexican 
Government. We know that, in many operations in Mexico, 
including the capture, last October, of one of the Arellano-
Felix brothers, that that arrest was successful because of 
cooperation and information sharing between the law enforcement 
agencies and intelligence sharing.
    So I think those kinds of cooperative relationships really 
are being strengthened via the Merida Initiative, and that is 
the goal, not just the equipment or the training.
    Mr. McCaul. I see my time has expired. I want to thank you 
again for your efforts.
    Mr. Engel. Thank you, Mr. McCaul. Ms. Giffords?
    Ms. Giffords. Thank you, Mr. Chairman and Secretary Johnson 
and Secretary Jacobson.
    I mentioned, in my opening comments, about living on a 
border and being part of a border district and the part that is 
most heavily trafficked, and, again, I cannot emphasize enough 
my concern to the people that live in my community, and thank 
you, Mr. Chairman, for working with us to try to come up with 
better solutions.
    I, today, will be introducing this resolution reiterating 
Mexico's importance as a strategic U.S. partner in supporting 
action to address the increasing violence and drug trafficking 
problems.
    I think that we, in the United States, have to reaffirm our 
commitment to Mexico. I think, in the press, there are 
statements that are being made that are wrong and that are 
false about the state of stability for the Country of Mexico, 
and I want to make sure that what is coming out of this 
subcommittee is our strong support for the country and, really, 
our willingness to put our resources behind this problem as it 
spills over into our community and as a good neighbor. So I 
urge members to sign onto that.
    Thursday, I sent a letter to Secretary Clinton and 
Secretary Napolitano urging them to immediately address the 
unprecedented rise in border violence. Of the approximately 
6,000 deaths that we have seen over the course of the last 
year, almost 40 percent of those murders occurred in three 
states: Baja, California; Chihuahua, and Sinaloa.
    When you look, geographically, about where the problem is, 
and then, of course, you look at Arizona and Texas and 
California and our state, we are concerned, and I know the 
money is just starting to flow now. I guess, in our minds, we 
have been working on this for many months, so I applaud the 
chairman for being proactive and oversight, oversight, 
oversight.
    Of course, that is our job, but along the lines of whether 
or not, at this point, we have seen any effect, in terms of the 
prices or demand of drugs in the United States, or in terms of 
pricing and firearms, have we seen any effects, even at this 
point in time?
    Ms. Jacobson. Well, obviously, many of our colleagues at 
DEA and other agencies, I think, have a better handle on some 
of the pricing availability information in the United States, 
but I do know that DEA has said quite clearly that since 
President Calderon came into office and began this effort, and 
certainly continuing with our partnership and the more 
effective operations that we are able to mount by sharing 
information, the price of cocaine, for example, in the United 
States has steadily gone up over a 24-month period, and the 
purity has gone down significantly.
    So while nobody, I think, wants to suggest that there may 
not be multiple factors for those kinds of changes, that is 
certainly the direction we would like to see things going in.
    In terms of weaponry, I am afraid I do not have any 
information on that, and we can certainly try and get you some 
from ATF and others. We really do believe that things like 
record amounts of operations in Mexico in 2007 and 2008, record 
amounts of seizures of both drugs and bulk cash, for example, 
were the result of increasing ability to work together.
    So, in that respect, as I say, I think Merida is beginning 
to bear fruit, although particular pieces of equipment may not 
be utilized by the Mexicans, and we hope that we will have 
significantly more data on that impact as the months go 
forward.
    Ms. Giffords. I brought up this issue last year, the 
killing of the journalists. I believe that 30 journalists have 
been killed over the past 6 years in Mexico. I am curious 
whether or not you can report on Mexico's progress to bring a 
permanent end to the violence against reporters or those 
individuals that are bringing to light some of these problems.
    Ms. Jacobson. Congressman Giffords, we share the concern, 
the great concern. Many reports have been written about how 
dangerous Mexico is for journalists, and it is a great concern 
of ours as well.
    As you know, there is a special prosecutor in Mexico for 
crimes against journalists, and what we have seen is, 
unfortunately, continued violence against journalists who are 
reporting on the activities of criminal organizations. This has 
resulted not only in danger to those journalists who continue 
to courageously report, but it has also resulted, frankly, in 
self-censorship among some in the media for fear and 
intimidation, and so, in some respects, the journalists are a 
reflection of the fear in the community that these cartels have 
imposed.
    I cannot tell you that any of the individual cases that the 
special prosecutor is working on have advanced to conviction. 
They continue to work on those cases. They continue to try and 
protect journalists and offer them the assistance of the 
government. It is something that the Mexican Government is 
working quite hard on, but, unfortunately, the cartels continue 
to target the media.
    Ms. Giffords. Mr. Chairman, could you indulge me for one 
more question?
    Mr. Engel. Certainly.
    Ms. Giffords. Thank you. In terms of the Merida Initiative 
promoting the rule of law, that was one of the provisions, and 
I am curious whether or not we have seen any sort of change to 
protect civil liberties or human rights, particularly among 
labor leaders, in Mexico.
    Ms. Jacobson. I think the way that I would put it is, 
certainly, that as Mexico has tackled judicial reform overall 
and passed the judicial reform that President Calderon 
championed, they are embarking on a series of changes that are 
really quite dramatic. They have a plan for the number of years 
that it will take to move from the inquisitorial system to the 
oral adversarial system, and one of the most important of those 
changes is the ability to resolve disputes not always going to 
court, the ability to use witnesses who are protected and will 
be able to testify and not, therefore, rely solely on 
confessions, which, unfortunately, can lead to increased human 
rights abuses.
    Mexico is just at the beginning of implementing those 
procedures, so, in terms of the judicial reform, I think that 
it will take some time. Certainly, the Calderon administration 
has been vocal in its adherence to human rights standards. It 
is an expectation that that will be the case among its forces.
    There are new and greatly expanded human rights training 
courses for prosecutors and police officers as part of their 
recruitment and training, and so it has become, I think, a much 
greater focus for the Mexican Government as they work on 
expanding and creating a modern and respectful police force.
    Ms. Giffords. Thank you, Mr. Chairman.
    Mr. Engel. Thank you, Ms. Giffords.
    I have two more questions which I would like to ask, and 
then we can let you go home. It has been a long afternoon.
    I mentioned before, in my opening remarks, the CIFTA 
Treaty, and the Merida Initiative includes funding, and I quote 
what it says, ``to support member states in reaching full 
compliance with the Inter-American Convention against the 
illicit manufacturing of and trafficking in firearms, 
ammunition, explosives, and other related materials, which is 
CIFTA.'' I have just quoted from the Merida Initiative.
    I agree with that, but I am unclear if the United States is 
currently in compliance with CIFTA. The U.S. has signed, but 
not ratified, CIFTA, so let me ask you this. Will you tell us 
if President Obama will press the Senate Foreign Relations 
Committee to ratify this treaty, and has the Obama 
administration had any conversations with the Senate on CIFTA 
since it has taken office?
    Ms. Jacobson. Thank you, Mr. Chairman. I think that, on the 
first question of whether or not we are in compliance with 
CIFTA, it is impossible to say that we are in full compliance 
with the treaty if we have not ratified it simply because of 
the legal meaning of ``in compliance.'' The truth is, however, 
we are complying with all of the substantive provisions of 
CIFTA, and, as you may have noted earlier, I believe, there 
would be no changes in U.S. law required for us to comply. We 
are able to do that now.
    In terms of the ratification of CIFTA, the administration, 
at this point, is working on various ways that we can comply 
with the responsibility to curb illegal flows of weapons going 
south across the border, and we will be working with the Senate 
on the priority treaty list. Seeking ratification of CIFTA is 
certainly one of those things that we will be discussing.
    Mr. Engel. Thank you. For my final question, I want to talk 
about Merida again because it is so important.
    Several different U.S. Government agencies are implementing 
assistance programs under the Merida Initiative. At the same 
time, the Merida Initiative, as you know, only represents a 
portion of overall U.S. Government efforts to fight drug-
related and gang violence in both Mexico and Central America.
    Last year, and I mentioned this before in one of my 
questions, the House of Representatives passed a bill 
authorizing the Merida Initiative, which would have set up a 
coordinator at the State Department to track all Merida and 
Merida-related funds and programs throughout the U.S. 
Government, and, again, as I mentioned before, this bill did 
not become law.
    But let me ask you, even though it did not become law, will 
the State Department establish a Merida coordinator? Have you 
been talking about that? That would have been directed under 
the House-passed Merida authorization bill, and I think it 
would be a very good idea.
    Mr. Johnson. Mr. Chairman, we work in a partnership, I 
think, across the government, and my responsibility is for the 
programs which fall under the INCLE account, but we all look to 
Roberta as the coordinator for this effort, and I think 
everyone across the government does.
    Mr. Engel. Do you agree, Ms. Jacobson? Do they add things 
onto you without a pay raise?
    Ms. Jacobson. I think that is the way it works, sir. I 
have, obviously, been very proud to be part of working on 
crafting the Merida Initiative from its inception and now 
working for implementation. We meet, as an interagency team on 
the Merida Initiative, every 2 weeks, across government, all of 
the agencies working here.
    We are lucky enough, in the Mexican case, in our Embassy in 
Mexico, to have every agency that participates in Merida 
working. You saw that when you were on the ground in Mexico, 
and in Central America we bring together the agencies working 
there as well. So I am optimistic that this process is working 
pretty well as we move ahead. Thank you.
    Mr. Engel. Well, thank you. Mr. Johnson and Ms. Jacobson. 
Thank you both very much for your testimony, which was 
excellent, and for your patience, which was doubly excellent. I 
know that we will be in touch, and we will follow up on many of 
these things.
    I think you can see, by the turnout here of members this 
afternoon, this is certainly a topic that is on many people's 
minds, and we want to work with the administration to make 
things better. Thank you very much.
    We will give our panelists a chance to leave, and then we 
will call our second panel.
    [Pause.]
    Mr. Engel. Well, I am now pleased to welcome our 
distinguished second panel. I know Mr. Mack is going to be out 
shortly.
    Kristen Rand is the legislative director at the Violence 
Policy Center. Welcome.
    Andrew Selee is director of the Mexico Institute at the 
Woodrow Wilson Center, where he oversees its activities related 
to United States-Mexico relations.
    Michael Braun is the managing partner at Spectre Group 
International, an international security consulting firm. He 
previously served as the chief of operations at the Drug 
Enforcement Administration.
    I welcome all of you, and I thank you for your patience. 
Being on the second panel sometimes is very difficult when you 
have a first panel, many members, and long votes, but I am 
eagerly awaiting your testimony, and we will start with Ms. 
Rand.

    STATEMENT OF MS. M. KRISTEN RAND, LEGISLATIVE DIRECTOR, 
                     VIOLENCE POLICY CENTER

    Ms. Rand. Thank you, Mr. Chairman, and thank you for 
addressing this important issue. I am going to just briefly 
summarize my written statement.
    Assault weapons are clearly a weapon of choice of the 
Mexican drug cartels, and that is because assault weapons 
incorporate specific design characteristics that make them much 
more lethal than standard sporting weapons, and that is 
particularly with respect to the ability to accept high-
capacity ammunition magazines.
    We know that AK-47 assault rifles have been identified by 
the Bureau of Alcohol, Tobacco, Firearms, and Explosives as a 
weapon type that is growing in popularity with Mexican 
traffickers, and this is probably due to the fact that AKs are 
relatively cheap and, at the same time, give cartels the 
firepower to assert their will against their enemies.
    We also know that traffickers obtain the bulk of assault 
weapons that they are using in Mexico in the United States. We 
had confirmation of that from the prior panel.
    But current U.S. policy is exacerbating the trafficking 
problem by allowing gun importers to bring into the United 
States AK-type assault rifles and other nonsporting firearms, 
despite the clear authority of the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives to prohibit the importation of assault 
rifles under the existing authority of the 1968 Gun Control 
Act's ``sporting purposes'' test.
    I have gone into detail in my written statement about the 
legislative history of this provision that makes it clear that 
ATF has broad discretion under this provision to prohibit the 
importation of any gun or ammunition that does not have a 
sporting purpose.
    In fact, in 1989, the George H.W. Bush administration used 
this existing provision of law to address this exact problem of 
imported assault rifles, and it was in response to mounting 
drug violence within the United States, in addition to a 
horrifying mass shooting in Stockton, California, in which the 
shooter used an imported AK rifle.
    In 1998, the Clinton administration acted to strengthen the 
ban, again, under the provisions of the 1968 law, to cover 
assault rifles that importers had been bringing in that made 
minor cosmetic changes to the weapon designs and skirted the 
1989 ban.
    From the time that the Clinton administration strengthened 
that law until the George W. Bush administration took office in 
2001, we really did not have any imported assault rifles on the 
market in the U.S., but since 2001, the Violence Policy Center 
has identified a tremendous increase in the number of imported 
assault, AK-type firearms available on the market.
    In publications such as Shotgun News, there are many, many 
advertisements for these types of guns that originate primarily 
in former Eastern bloc countries, such as Romania, Bulgaria, 
and the former Yugoslavia. I think we have an image here, if 
you could project, of some examples of AKs. The next slide is a 
page from a Shotgun News, and, if you look closely, you can see 
how cheap these guns are.
    We also know, from the Census Bureau, that more than 90,000 
semi-automatic rifles came in from Romania in 2006 and 2007, 
and ATF itself has admitted that it allows importers to bring 
in the parts for these types of rifles, assemble them, and then 
they consider them to be domestically manufactured rifles, this 
despite being contrary to an existing law that prohibits the 
assembly of that gun from imported parts; so, again, another 
provision of existing law that is not being enforced.
    The Obama administration could act today to prohibit the 
import of all assault rifles, under their existing 
administrative authority, and we would urge them to do that 
with all due speed. Thank you.
    [The prepared statement of Ms. Rand 
follows:]<greek-l>Kristen Rand deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Ms. Rand. Mr. Selee?

 STATEMENT OF ANDREW SELEE, PH.D., DIRECTOR, MEXICO INSTITUTE, 
        WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Selee. Thank you, Mr. Chairman. It is an honor to be 
able to testify in front of the committee. This is both a 
timely and a well-focused hearing. It is timely because the 
organized crime tied to drug trafficking in Mexico is clearly 
something that----
    Mr. Engel. Mr. Selee, we just want to check your 
microphone.
    Mr. Selee. Yes. Thank you. Thank you again, Mr. Chairman, 
for the opportunity to be here.
    The issue of organized crime tied to drug trafficking in 
Mexico is extremely timely, given the rising violence in 
Mexico. As we have heard, there were over 6,000 drug-related 
killings last year.
    The Mexican Government has accurately defined this as the 
country's greatest threat and taken measures to try and deal 
with this while strengthening judicial and police institutions 
in Mexico.
    Indeed, much of the violence we are seeing in Mexico is the 
result of the government's aggressive campaign against drug 
traffickers since the arrest of key dealers and the closing of 
old trafficking routes have created new rivalries and divisions 
among the drug trafficking organizations.
    As Congresswoman Giffords pointed out, three states today 
account for most of the violence, as cartels have split up and 
are fighting over old trafficking routes.
    We should not confuse this spike in violence with the 
breakdown of order in Mexico. That is not happening. The 
failed-state question and all of that; that is now what is 
going on.
    However, at the same time, the violence is a symptom of 
something deeper, of the ongoing presence of organized crime 
and its capacity to corrupt law enforcement and judicial 
institutions in many places throughout the country. When the 
violence goes down, and it is likely that it will, at some 
point--at some point, the cartels will decide that it is not a 
good business model to be killing each other, and they are 
going to come up with pacts--we should also not confuse that 
with the resolution of the problem.
    Organized crime tied to drug trafficking has penetrated 
Mexican institutions in new and dangerous ways. The Mexican 
Government and Mexican society are right to make this a 
priority for action, and I would also echo what Congresswoman 
Gifford said about the attacks on journalists. There is a 
series of things that have come out of this that are of great 
concern to Mexican society.
    We, in the United States, have a huge stake in what happens 
in Mexico, both because Mexico is a neighbor and a strategic 
partner and because the issue of drug trafficking involves both 
of us in equal parts. As President Obama said the other day, 
``It is a two-way situation.''
    For this reason, today's hearing is especially well 
focused. Although much of the violence is on the Mexican side 
of the border, and Mexico faces significant challenges for 
strengthening its institutions, these organizations are 
sustained by the appetite for narcotics on our side, with U.S. 
drug sales accounting for as much as $15-25 billion that is 
sent back to Mexico each year to fuel the cartels. Part of the 
solution is, therefore, on our side of the border as well.
    Fortunately, we have seen, as we heard earlier from the 
previous panel, a great deal of law enforcement cooperation 
that has taken off the Merida Initiative has been central to 
this, beyond the actual funding itself, has been really 
creating the environment of trust on both sides of the border.
    However, and this is the main point I would like to make 
today, the most important actions that the U.S. Government 
could take to undermine the reach and violence of the drug 
trafficking organizations need to be taken on this side of the 
border, and there are three sets of actions that I think we 
could strengthen things we are doing now, but that we could a 
lot better, that would make a huge amount of difference, and I 
am going to draw on the report that the Wilson Center did 
called The United States and Mexico: Towards a Strategic 
Partnership.
    First, we could do a lot more to reduce the consumption of 
drugs in the United States. It has been said several times 
today that the demand for narcotics is what drives the drug 
trade, and I think that is something that President Obama has 
been very open about, and it is something that this 
subcommittee has been very open about.
    There is no magic bullet to do this. However, if we look at 
recent Federal expenditures on narcotics, it shows that we have 
increasingly emphasized supply reduction and interdiction while 
scaling down our commitment to lowering consumption in the 
United States.
    Available research suggests that investing in the treatment 
of drug addictions is not only good for U.S. communities, but 
it is the most cost-effective way of driving down the profits 
of drug trafficking organizations, hitting them at the bottom 
line.
    There is also a great deal we can do at preventing 
addictions. It is something that has not always been successful 
in the past, but there are some new models out there that have 
been very successful that we could be building on and scaling 
up.
    Secondly, we could do much more to disrupt the $15-25 
billion that flows from drug sales in U.S. cities back to drug 
trafficking organizations in Mexico and fuels the violence we 
are seeing.
    Just to summarize, there is no single agency which has 
complete responsibility for this. One of the things that has 
happened is we have seen drug trafficking organizations move 
from laundering money in financial institutions to bulk cash, 
and this is something that really needs a higher level of 
cooperation among DEA, CBP, ICE, FBI, Treasury, and local law 
enforcement to trace it.
    Third, we can do much more to limit the flow of high-
caliber weapons from the United States to Mexico, and Ms. Rand 
has already covered that.
    Let me just say, to finish up, actually, and I think part 
of the solution, by the way, is also more ATF inspections at 
the border, but also getting more cooperation among other 
agencies, seeing this as a major issue that all law enforcement 
agencies should be looking at, and enforcing current laws.
    Why does this matter? Most of these things are domestic 
issues. Why talk about this in the Subcommittee on the Western 
Hemisphere?
    Clearly, this is something where we need to bring together 
the foreign policy community and our domestic institutions. If 
we are really going to tackle our shared problem with Mexico of 
drug trafficking, we need to begin to get our foreign policy 
agencies with our domestic agencies, and that means the 
leadership of committees like this, and your counterparts in 
the Senate, who see the foreign policy dimension of this but 
can also talk to your colleagues who are on the domestic 
committees.
    This is the kind of challenge which we cannot solve merely 
by the Merida Initiative, though that is a good start, but we 
really need to get some cooperation going on our side of the 
border as well. I will stop there.
    [The prepared statement of Mr. Selee 
follows:]<greek-l>Andrew Selee deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much. Mr. Braun?

 STATEMENT OF MR. MICHAEL A. BRAUN, MANAGING PARTNER, SPECTRE 
                    GROUP INTERNATIONAL, LLC

    Mr. Braun. Chairman Engel, Ranking Member Mack, thank you 
very much for the invitation to testify before you today. 
Although I am in the private sector now and have been for about 
4 months, I spent 34 years in law enforcement, the last 24 of 
which were with the DEA, and I ended up, in my last 4-year 
assignment with that agency, as the organization's number-three 
chief of operations.
    I lost a lot of sleep over what has been going on in Mexico 
over the past 3 years. DEA has 11 offices in Mexico. We have 
got a big footprint. The agency is working, shoulder to 
shoulder, with our Mexican counterparts to take on this ever-
evolving threat.
    It is important to mention also, you have got a lot of 
Federal law enforcement folks down there. You have got ICE 
agents, FBI agents, and others that are working with our brave 
Mexican counterparts.
    Three questions I would like to answer in my opening 
comments: What is really happening in Mexico on the ground 
right now? What is causing it? And the last question to be 
answered, I believe, is, can Mexico win?
    The first question: What is really going on? Well, there is 
a real drug war playing out in Mexico, obviously, with over 
6,000 drug-related homicides last year. An important piece that 
has not been mentioned: 534 police officers alone killed last 
year. Of those 530, 493 were killed as a result of drug-related 
violence. Over 200 beheadings, for God's sake<greek-l>s deg.. 
What is playing out on Mexico's streets matches, and sometimes 
exceeds, our worst days in Afghanistan and Iraq.
    So what is causing it? Drug violence; it is nothing new to 
Mexico. There has been plenty of drug violence over the years, 
but what has happened over the last 4 years, really, or 5 
years, quite frankly, is the cartels have been wept up in the 
perfect storm.
    About 4 years ago, DEA, ICE, and the FBI began very 
aggressively attacking the financial infrastructure of the 
cartels in Mexico, as well as other Colombian cartels and 
others. At DEA, I know the agency mandated that every 
investigation now have, and this was about 4 years ago, have a 
financial aspect to every case. Reverse engineer the cases. We 
have done a great job of following the drugs in one direction; 
let us just start following the money back in the other 
direction.
    In 2007, I left before the numbers were in. In 2008, the 
DEA seized about $450 million in cash in the United States. The 
vast majority of that was destined for Mexico.
    The second thing that was going on about 3\1/2\-4 years 
ago: Several of the cartels began fighting over turf. Again, 
that has happened many times in the past. There is a very 
important piece that leads into that. So that was going on.
    The next dynamic, or the next dimension, to this is, is 
President Calderon is elected. Shortly after taking office, I 
believe he understands clearly that he has got a real threat on 
his hands, that Mexico could devolve into a narcostate within 
the next decade, as General McCaffery's report and assessment 
just found not long ago.
    So he developed a long-term strategy to break the backs of 
the cartels, pushed 45,000 Mexican military personnel to 
bolster the ranks of the Federal law enforcement, and he has 
taken on the cartels like no one has ever taken them on before. 
So that is another important piece to what is happening in 
Mexico now.
    The fourth element is Federal law enforcement in our 
country working very closely with our military, strongly 
supported by Admiral Saveredes at SOUTHCOM, Vice Admiral Mimick 
at GADSOUTH, and, from your bailiwick, Congressman Mack, have 
supported DEA, ICE, FBI in attacking the soft underbelly of the 
cartels, their transportation infrastructure.
    I do not want to give up all of the secrets, but the very 
important piece to this strategy was attack the transportation 
nodes that are moving the drugs up and constantly attack them 
with everything that our nation can bring to bear against them. 
Every time we cause them to change, which is what this strategy 
does, they become more vulnerable. As they become more 
vulnerable, we become more successful.
    The seizure rates are off the charts for the last 3 to 4 
years. The bottom line is that with that revenue denied, as 
well as that massive cash flow that we are taking away from 
them, they are in financial straits, so much so that the 
Colombian cartels that supply the Mexican cartels with their 
cocaine have basically cut them off. They are not providing any 
drugs on consignment any longer.
    So their backs are against the wall, like they never have 
been before, and they are lashing out.
    That is what is happening in Mexico. Quickly, can they win? 
Absolutely. You mentioned this earlier, Congressman, that, 
although there are enormous differences between Mexico and 
Colombia, there are more commonalities with what is happening 
between those countries and what has happened in them in the 
last 10 years than there are differences.
    In Colombia, their kidnappings-for-ransom numbers have 
plummeted over the last 3 or 4 years like never before. Their 
homicides, their armed robberies, all of their violent-index 
crimes, have plummeted. They have a law enforcement presence in 
every community in that country for the first time in 
Colombia's history, and if you look at where they are at today, 
it is a glowing success story.
    If our brave Mexican counterparts do not lose the will to 
fight, just like our Colombian counterparts did, they will win. 
It is going to take some time. Thank you.
    [The prepared statement of Mr. Braun 
follows:]<greek-l>Michael Braun deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Braun.
    I am going to call on Mr. Mack to ask his questions. Mr. 
Mack?
    Mr. Mack. Thank you very much, Mr. Chairman.
    I want to explore a little bit more the issues of the guns. 
I am trying to get a better understanding of some of the 
numbers that I am hearing, so, hopefully, you can answer some 
of those.
    We keep talking about 90 percent of the arms seized from 
the cartels come from the United States. Do you have any 
reliable hard data? We keep looking for the backup of that 
number. So that would be my first question: If you have that, I 
would love to see it.
    Added onto that question is, do we know how many guns are 
coming in, let us say, from Venezuela or from other parts of 
Latin America? The question is whether or not all of these guns 
can be traced. So if you would like to answer those, then I 
will have a follow-up.
    Ms. Rand. Well, as far as the 90-percent figure, we really 
have to rely on whatever the Bureau of Alcohol, Tobacco, and 
Firearms wants to tell us, and they have repeated that 90-
percent number many times.
    The problem there is that Congress has foreclosed public 
access for researchers, and even public officials, to the 
underlying data, the data in ATF's Crime Gun Trace Database, 
which used to be publicly available. If that were still the 
case, you could look at it and identify the source of any trace 
gun, but Congress has cut off access to that database, so we 
are really at the mercy of ATF to tell us the source of these 
guns, and they consistently say, and I think you heard the 
State Department representative say today, again, 90 percent of 
the guns that are traced have a U.S. source, with the three 
primary state sources being Arizona, Texas, and California.
    With respect to your second question, the Census Bureau 
collects data on the origin of imports, and I am looking at the 
data for 2006 and 2007. I do not see anything coming in from 
Venezuela. That information is available from the Census 
Bureau. The problem there is that it is only broken down very 
broadly by weapon type to the point of semi-auto or bolt or 
rim-fire rifle, so we do not have the make/model information 
there that would be extremely instructive on finding out how 
many of these AK variants, for example, are coming from 
different countries.
    So the data exists; we just cannot access it. So part of 
the answer there is repealing the so-called TR restrictions on 
the release of the trace data.
    Mr. Mack. So it would be fair to say, then, that we ought 
to be careful about the numbers that we choose to talk about in 
these weapons in Mexico because it does not sound like we have 
a clear understanding of exactly what percentage of guns come 
from the United States compared to where they might come from 
other countries.
    Ms. Rand. Well, we can only rely on the idea that the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives is 
providing all of us with accurate data.
    Mr. Mack. You sound skeptical.
    Ms. Rand. I would like to see the data myself. I think we 
would have a much better, fuller understanding of the problem, 
but I think that ATF is being accurate when they are saying it 
generally is coming from the U.S.
    Mr. Mack. Well, generally coming from the U.S. and 90 
percent--those are----
    Ms. Rand. I think the 90 percent of trace guns.
    Mr. Mack. Of trace guns, but that does not give you an 
exact picture of the problem.
    I think, before we start talking about changing our laws 
here in the United States, and I think the chairman agrees, is 
that what we should be doing is enforcing the ones that we have 
on the books and then giving the tools to Mexico and our 
partnership to continue this fight because I am hopeful that, 
as we see Plan Colombia has been successful, that we can also 
see success in Mexico, and it is vital for Mexico, and it is 
vital for us in the United States.
    So I am with you. We need to have more information about 
these numbers.
    Ms. Rand. I am with you, Congressman, that we need to 
enforce existing law, and existing law is a ban on the import 
of assault rifles, and that needs to be better enforced, and 
then fewer of these guns would be coming from the U.S.
    Mr. Mack. The other issue that we have to deal with is, 
what do we do to fully implement, fully fund, the Merida 
Initiative and empower the cooperation between the United 
States and Mexico to continue to keep the pressure on, as Mr. 
Braun said, that we can win this?
    What kind of help are we getting from some of our Latin 
America friends and allies in this effort in Mexico, and, as 
important, which countries are either staying on the sidelines 
or working against us in Mexico?
    I know you mentioned SOUTHCOM, you mentioned my good State 
of Florida, where the concern is, are drugs moving south and 
then through the Caribbean and eventually into Florida and 
other access points? Mr. Braun, if you could touch on those.
    Mr. Braun. Well, there is a great deal of cooperation, 
Congressman Mack, between several countries in Latin America 
supporting both Mexico and U.S. efforts to stem what is going 
on.
    I can tell you that, over the past 3 years, the DEA and our 
Mexican counterparts, Eduardo Medina Mora, the attorney 
general, and, in Colombia, Juan Manuel Santos, who is the 
minister of defense, but, in Colombia, the national police and 
the military all fall under his domain or authority.
    But for the last, somewhere between 3 to 4 years now, twice 
a year, DEA meets with Eduardo Medina Mora and his team and 
also, in some instances, Genaro Garcia Luna and members of his 
team from the SSP, but also Juan Manuel Santos and the head of 
the Colombian National Police, and we develop joint strategies 
to attack the flow of drugs, to focus on the money, and really 
to identify, investigate, and bring to justice the most 
notorious traffickers that are working in that area, really, 
much of Jim Saveredes's area.
    We have actually called this a tripartite agreement, and 
these tripartite meetings, again, take place a couple of times 
a year, and it has been enormously successful.
    Look, the Colombians know a lot, and they have a lot of 
lessons learned that they can and do share with Mexico.
    So that is kind of a long-winded answer to a relatively 
simple question, but I believe Colombia, quite frankly, has 
become both Mexico's and the United States's probably strongest 
ally in that part of the world in helping Mexico get a handle 
on their situation right now.
    Mr. Mack. What are you seeing, or what did you see, and 
what can you tell us, about drug trafficking through Venezuela, 
either its airspace or otherwise?
    Mr. Braun. Well, as David Johnson mentioned earlier, 
GEADSOUTH and SOUTHCOM routinely monitor flights that are 
leaving the coast of Venezuela, flying ton and multi-ton loads 
of cocaine into Hispaniola, where it is either dropped to the 
water or dropped to land, air dropped to land, and, 
occasionally, flights actually land where the drugs are 
offloaded, and the planes turn around and fly back.
    If you saw the PowerPoint slide that clearly depicted that 
activity, you would be absolutely shocked. Each one of those 
flights represents a red line, and all that you see is a mass 
of red.
    Many of these drugs are moving up into the Caribbean. There 
are some concerns that I have got that I cannot speak about 
openly that I would be happy to talk to you about, or I can 
make sure the DEA fills you in, as well as SOUTHCOM. But more 
and more of these drugs are also headed to West Africa onward 
into Europe, Russia, and elsewhere.
    Mr. Mack. And these drugs that are going through, the 
origin of them; is it mostly from Colombia? Is any of it coming 
from Mexico?
    Mr. Braun. Some of the drugs that are making their way into 
West Africa and onward into Europe and Russia and elsewhere are 
coming from Mexico, but the vast majority of the drugs that I 
am talking about that are making their way into Hispaniola then 
north into the Caribbean or east into Africa, they are 
ultimately coming from Colombia and the Andean region. That is 
where all of the cocaine in the world is produced.
    But suffice it to say that it is making its way into 
Venezuela. Venezuela is alerted every time one of these 
aircraft leaves and returns, and, obviously, there is not much 
going on. They are not reacting.
    Mr. Mack. So as we are attacking, as you mentioned, either 
the underbelly, or the soft side, of the cartel in their 
transportation, they are looking for other avenues.
    Mr. Braun. That is correct.
    Mr. Mack. Thank you very much. I thank all of you for being 
here.
    Mr. Engel. Thank you. Let me ask Ms. Rand, as you noted in 
your testimony, in recent years, the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives has quietly abandoned 
enforcement of the ban on imported assault weapons. I mentioned 
that in my testimony. I have been talking about that for the 
past several months.
    As a result, the U.S. civilian firearms market is flooded 
with imported and expensive military-style assault weapons, 
which are often trafficked from the United States into Mexico.
    As we heard before, importers have been able to skirt 
restrictions by bringing in assault weapons parts and 
reassembling them with small numbers of U.S.-made parts.
    So my question to you is, roughly, what percentage of 
assault weapons that are recovered in Mexico had been brought 
into the United States as assault weapons parts and reassembled 
with a small number of U.S.-made parts? In other words, how 
much of a problem is the reassembly-of-parts issue?
    Ms. Rand. Well, it is hard to know exactly what percentage 
of guns are coming in whole and how many are being assembled 
and are brought in as parts.
    One piece of information we have is that there were more 
than 90,000 semi-auto rifles brought in from Romania in 2006 
and 2007. Those would be brought in as whole guns. I would say 
most of those are AK variants.
    But we also know, from looking at gun industry marketing 
and advertising, that many of the manufacturers explain how 
they just add a few parts to skirt the import ban.
    So I think, at this point, all we can do is make a best 
guess, but we know the parts problem is a huge part of the 
problem, and I would say that the majority of the guns are 
coming in as parts, and some of them are coming in whole, so I 
would guess, 60 parts/40 whole. That would be my best 
guesstimate.
    Mr. Engel. What do you think, specifically, the Obama 
administration can do to ensure that importers do not continue 
to skirt current restrictions? What do you think?
    Ms. Rand. Well, I mean, really, all the Obama 
administration needs to do is announce that it is now their 
policy that no more assault rifles will be imported into the 
U.S., whether in parts or as whole guns. They have that 
authority under the 1968 Gun Control Act, the so-called 
sporting purposes test, and a separate provision of Federal law 
which prohibits the assembly of prohibited guns from parts.
    So all they basically have to do is announce that that 
shall be their policy, and they can suspend whatever import 
process is underway, that that is what the George H.W. Bush 
administration did. So it is really completely within their 
administrative authority. It has been done twice before the 
Clinton administration did it, so it is really just a function 
of taking that policy position.
    Mr. Engel. So that would be exactly what I requested in my 
letter to President Obama, along with 52 or so of my 
colleagues. That would be exactly what we requested, is what 
you would suggest should be implemented.
    Ms. Rand. Yes. In addition to that, I think they just need 
to make it clear that the goal is there shall be no imported 
assault rifles in the country, whether they come in as parts or 
as whole guns, but exactly what you have requested is what 
would need to happen.
    Mr. Engel. Thank you. Let me ask Dr. Selee--I am 
mispronouncing your name--I was just corrected, so I do 
apologize--and Mr. Braun. Texas Governor Rick Perry, last week, 
requested 1,000 U.S. troops or border agents to be deployed to 
the United States-Mexican border to deal with the escalating 
violence.
    Do you agree with that? Would it be appropriate to send the 
U.S. military or additional border agents to the United States-
Mexico border to deal with the escalating violence? Do you 
agree with what Governor Perry has said?
    Mr. Selee. I certainly understand his concern, as a 
governor. I think, you know, taking a national look at this, in 
the national interest, I think that would probably be 
counterproductive, at this time.
    Right now, the best tool we have to get a handle on what is 
going on, in terms of violence, is the intensified cooperation 
between the United States and Mexico, and we have seen a real 
coming together between the two governments in a way we have 
never seen before, working together on the law enforcement 
side, on the institution-building side, on the money trail, on 
the arms trail.
    This is something that clearly is a work in progress, as we 
heard from the earlier panel, but it is a work in progress that 
is proceeding very well and in a way that I think we could not 
have imagined 10 years ago. Were there to be what would be 
perceived in Mexico as a militarization of the border, it might 
be, obviously, National Guard supporting civilian authorities, 
but what we perceived in Mexico was a militarization of the 
border. I think that would be counterproductive to that 
cooperation and would probably hurt our ability to go after 
organized crime in an effective way.
    Mr. Engel. Thank you. Mr. Braun, do you agree with that?
    Mr. Braun. Mr. Chairman, look, I believe that there is a 
role for our military, and certainly a role for our National 
Guard, but I would not recommend or suggest that they be 
deployed in large numbers along our border in uniform.
    We talked about this last week in another hearing. The 
National Guard has supported DEA and other Federal law 
enforcement agencies along the border and elsewhere in the 
United States for several years with additional intelligence 
analysts and analytical support and that kind of thing. There 
is a presence at the El Paso Intelligence Center from our 
military and our National Guard support role.
    If you will remember the incident--gosh, I guess it was 
probably 10 years ago now--where a young Marine that was 
assigned to an observation post outside of El Paso confronted a 
sheep herder, a young kid, who happened to be carrying a .22 
rifle, and he pointed it in the wrong direction, and that young 
Marine shot and killed this kid. You know, the echo and 
reverberation from that incident, you know, could be heard 
around the globe for several weeks thereafter. I mean, it was 
in the papers, et cetera.
    The bottom line is, is, look, longstanding doctrine in our 
military is to identify, seek out, and destroy, the enemy by 
overwhelming firepower, and law enforcement's job is to 
identify, investigate, and bring to justice the bad guys.
    The two do not mix real well, and putting our military in a 
mission that they just absolutely are not trained and equipped 
to do, I believe we are asking for trouble.
    Mr. Engel. Thank you very much. I have one final question, 
and, again, it is on Merida because that so permeates 
everything we do. So let me throw out a bunch of Merida 
questions. Anybody who wants to comment on any part of them may 
do so.
    Congress Daily reported yesterday that, in addition to 
already approved funding for the Merida Initiative, in future 
Fiscal Year 2010 Merida funding, the administration is 
considering additional funding as part of an upcoming emergency 
supplemental spending bill. Do you think that is a good idea? 
Do you believe that additional Merida funding is needed 
immediately, or is there time to spare? What, in your opinion, 
would be the advantage of additional Merida funding through an 
emergency supplemental spending bill? What would be your advice 
to the Obama administration as they prepare their Fiscal Year 
2010 spending proposal for the Merida Initiative and possible 
emergency supplemental spending plans?
    Finally, funding for the first phase of the Merida 
Initiative was approved by Congress, as you know, in July 2008. 
However, it has been very slow in reaching Mexico, with a 
letter of agreement between the United States and Mexico just 
being signed in November.
    To what degree is this slow pace of the Merida Initiative 
in sync with an effective response to the spiraling violence in 
Mexico, and what are the prospects for delivering the equipment 
and training at a faster pace?
    That is a bunch of questions. If any of you care to comment 
to any of them, I would be grateful.
    Mr. Braun. Chairman, if I could just start by saying I 
believe the $1.4-1.6 billion in Merida funding over 3 years is 
a start in the right direction, but I, for one, believe it is 
going to take a great deal more.
    What Mexico, I believe, needs more than anything else is 
the development of professional and enduring law enforcement 
institutions and an entire vetted judicial paradigm, if you 
will. You can have the best-trained and vetted officers, but if 
you do not have vetted and well-trained prosecutors and judges 
and prison officials, then the entire judicial process falls 
apart like a house of cards.
    So that is what we are looking at in Mexico. We are not 
talking about an Iraq or an Afghanistan situation where, you 
know, you have got entire police forces. I spent 4 months in 
Iraq, for God's sake<greek-l>s deg., helping to do the original 
assessment of the Iraqi National Police Force in 2003. We are 
not talking about a situation like that where you have got 
85,000 cops that have just left and took everything with them.
    We do not have to start from the very beginning, but what 
we do have to do is, I believe strongly, is to provide far more 
money and support to our Mexican counterparts to build a very 
professional, enduring judicial system and process, which 
obviously includes the cops.
    What the magic figure is, I do not know, but I can tell you 
right now, based on past experience over 34 years, $1.4 billion 
or $1.6 billion falls way short.
    If I could make one last comment, sir, before I end, 
because this will probably be it for me and my opportunity to 
speak.
    Our country needs to understand that our Mexican 
counterpart, President Calderon, lost 530 cops last year, 493 
to drug-related violence. That does not count the military 
personnel. Okay?
    Some of those cops and military personnel were killed 
because they had succumbed to corruption, but the vast majority 
of them are good cops who are doing the right thing, and they 
are not just dying for their people; they are dying for ours as 
well, and it is very important that they be recognized. I hope 
that both of you, as leaders in Congress, can find some way to 
do that. Thank you.
    Mr. Engel. Thank you very much. Dr. Selee?
    Mr. Selee. Mr. Chairman, I should actually preface this by 
saying that the Wilson Center takes no position on legislation 
whatsoever, so whatever I say is a personal analysis.
    I think it would certainly be very healthy to look at 
additional funding. Clearly, as Mr. Braun has said, this is an 
issue that is in our own national interest. We should not be 
downsizing what we had originally planned to do on something 
that is this important. So if there is a possibility to come 
back and look at the emergency supplemental, I think this is 
one of the issues that we should consider very seriously.
    As Mr. Braun points out, I think we need to look, long 
term, on the balance between institution building and hardware. 
I cannot break out what a balance should be, but I think we 
need to think about what is sort of needed now, in terms of 
some of the hardware, to deal with the cartels, which, I think, 
is a real need, the helicopters and the planes, but also what 
is needed in terms of building judicial institutions--training, 
the exchange programs, strengthening the protections for 
journalists--a series of things that would really strengthen 
the rule of law in Mexico in the long term.
    My sense is that is where the long-term struggle is. Also 
police institutions: Giving both the technology but also the 
training and the accountability, the development of internal 
controls for police in Mexico, which is critical, and I think 
those would be critical areas to focus on in the long term, and 
it is probably where we want to head with the Merida Initiative 
and probably where the Mexican Government will want to head as 
well.
    Let me make one final comment. I think, actually, starting 
now, and especially as this continues to be debated, I think 
there is an opportunity here for the Obama administration to 
have a very energetic, interagency process, probably run out of 
the NSC perhaps. They can figure out how they do this.
    But I think you need to generate a very robust interagency 
process where you bring together all of the different actors 
that are involved in dealing with organized crime, and that 
means the State Department, which is the lead on Merida, but it 
also means getting together Homeland Security, the Justice 
Department, the Defense Department, a series of other agencies 
out there and the component parts of these departments, who all 
have pieces of the puzzle, ONDCP clearly.
    We need to be looking both at what we do, in terms of the 
assistance package, but also what we are doing in terms of 
demand reduction, what we are doing on the arms question, what 
we are doing on the money side of this. The more we can create 
a comprehensive strategy on this side of the border, working in 
tandem with our Mexican counterparts, I think it is going to be 
a much stronger process. Merida, to a large extent, I think, is 
the opportunity to do that.
    Mr. Engel. Thank you very much. If there are no further 
comments, then let me thank you. Let me thank you for 
testifying and excellent testimony. I know we will be working 
with all of these issues in the coming days, weeks, and years. 
I think that there are lots of things, and I think that we have 
much more agreement on what to do than we have disagreement.
    One of the things I know, from all of the testimony, both 
from the other panel, from your panel, from what Mr. Mack has 
said, from what I have said, I think we can all agree that 
Mexican President Calderon is doing an excellent job in 
combating drug violence and that the United States should do 
whatever we can to help him in his very courageous fight.
    I want to just say that when we went to visit him 2 weeks 
ago, our bipartisan delegation, and we were truly bipartisan--
we were four Democrats and three Republicans--we all told him 
that. We spoke with one voice, and we told him that he was very 
courageous, and, in fact, the violence that we have seen, and 
that, unfortunately, is continuing, to a very large degree, is 
a result of his cracking down, or attempting to crack down, on 
the drug cartel. It is as if the drug cartel is saying to him, 
``We will show you who runs this country. You think you are 
going to crack down on us. Well, we will show you.''
    So I think that it is imperative for all of us to support 
President Calderon in what he is doing, and I think we all 
agree, again, that he is doing a very excellent job for his 
country, and we all, all seven of us, told him that, and I 
think that shows from the testimony today as well.
    So I thank you very much for your testimony. I thank Mr. 
Mack for his patience, and the subcommittee is now adjourned.
    [Whereupon, at 6:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Mack: Testimony of Chris Cox deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Burton: Slides deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
